<html>
<title> - CLIMATE CHANGE AND NATIONAL SECURITY</title>
<body><pre>[Senate Hearing 111-1209]
[From the U.S. Government Publishing Office]











                                                       S. Hrg. 111-1209

                  CLIMATE CHANGE AND NATIONAL SECURITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 30, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________
                                  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-882 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 30, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     8
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    10
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    13
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    14
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    18
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    19
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    20
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    22
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    23
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    25

                               WITNESSES

Warner, Hon. John, Former U.S. Senator...........................    41
    Prepared statement...........................................    44
    Responses to additional questions from:
        Senator Cardin...........................................    58
        Senator Inhofe...........................................    60
    Response to an additional question from Senator Barrasso.....    60
McGinn, Dennis, Vice Admiral, U.S. Navy (retired); Member, 
  Military Advisory Board, Center for Naval Analyses.............    88
    Prepared statement...........................................    91
    Responses to additional questions from:
        Senator Cardin...........................................    97
        Senator Inhofe...........................................    99
Powers, Jonathan, Captain, U.S. Army (retired); Chief Operating 
  Officer, Truman National Security Project......................   101
    Prepared statement...........................................   103
    Responses to additional questions from:
        Senator Cardin...........................................   107
        Senator Inhofe...........................................   108
Rivkin, David B., Jr., Partner, Baker and Hostetler LLP; Co-
  Chairman, Center for Law and Counterterrorism at the Foundation 
  for Defense of Democracies.....................................   111
    Prepared statement...........................................   113
    Responses to additional questions from Senator Inhofe........   124
 
                  CLIMATE CHANGE AND NATIONAL SECURITY

                              ----------                              


                        THURSDAY, JULY 30, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Cardin, Klobuchar, Whitehouse, Udall, Voinovich, Barrasso, 
Bond, and Alexander.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The committee will come to order.
    I am deeply honored at having some many great Americans 
before us today. We welcome the panel.
    I just want to go through the way we are going to proceed.
    Today, on the floor of the Senate, momentarily maybe, or 
maybe not for a while, is a very important measure to replenish 
the Highway Trust Fund which, because of a number of reasons, 
some good and some bad, is running out of funds. When I say 
some good, it is because it means people are driving more fuel-
efficient vehicles, and we are starting to make progress in 
that regard.
    So, we see that the Trust Fund is running low on funds. So, 
today we have a measure to replenish the Fund. Unfortunately, 
it is a little controversial. So, I will have to leave at some 
point, and Senator Cardin will then take over as the Chair. He 
is just a great member of the committee. He is always there for 
us if we need him. And I thank him very much for that.
    So, I am going to give an opening statement and colleagues 
will as well. After that, Senator Warner has reminded me of a 
Senate rule that says when a former Senator appears before the 
committee, he or she must be sworn in.
    So, we will do that just for Senator Warner. We will not do 
that for the other members of the panel. And then we will 
proceed. We will go right down the row, and we look forward to 
hearing all of your comments.
    Today's hearing will give us an opportunity to focus on 
climate change and national security. Again, I want to extend a 
warm welcome to our panel, and if I might just say, as a point 
of personal privilege, to our former colleague, Senator Warner, 
who retired just last year and whose leadership on this issue 
has been invaluable.
    For many years, the world's experts on security have been 
telling us that global warming is a threat to our Nation's 
security and a danger to peace and stability around the world. 
Their words of warning should not be ignored. In 2003, the 
Defense Department commissioned a study that found the U.S., 
and I am quoting here, ``will find itself in a world where 
Europe will be struggling eternally with large numbers of 
refugees washing up on its shores and Asia in serious crisis 
over food and water. Destruction and conflict will be endemic 
features of life.'' That is from the Defense Department in 
2003.
    A 2007 report conducted by the Center for Naval Analyses 
found that the United States could more frequently be drawn 
into situations of conflict ``to help provide stability before 
conditions worsen and are exploited by extremists.''
    And just last September, the NATO Secretary General said 
that global warning will, and I quote, ``sharpen the 
competition over resources, notably water, it will increase the 
risks to coastal regions, it will provoke disputes over 
territory and farming land, it will spur migration, and it will 
make fragile states even more fragile.''
    In addition to the destabilizing impacts that global 
warming will bring, shortages of food production due to 
drought, shrinking supplies of clean water as glaciers recede, 
displacement of people from low lying areas as sea levels rise, 
we must also address the ways in which our dependence on oil 
makes us more vulnerable.
    A May 2009 report by retired U.S. Generals and Admirals, 
including Admiral McGinn, one of our witnesses today, stated 
that ``a business as usual approach to energy security poses an 
unacceptable high threat level from a series of converging 
risks.''
    I believe we must heed these warnings to protect our 
Nation's security, and addressing the threats posed by climate 
change will also bring with it tremendous opportunity. The 
steps we take to address global warming, including incentives 
for the development of clean energy such as wind, solar, 
geothermal and algae fuels, developing a fleet of electric and 
other highly efficient vehicles, will help lessen our 
dependence on foreign oil.
    Clean energy legislation will also create millions of new 
clean energy jobs. It will build a foundation for long-term 
economic growth.
    We need to accelerate the process of building a new 
American clean energy economy. Clean energy, I believe, is the 
U.S. path toward economic leadership, a robust recovery, a 
healthier life for our families and a more secure world.
    So, I look forward to hearing the testimony of witnesses 
today.
    Now, I have made my statement in about 3 minutes. I would 
ask colleagues to try to hold your opening statements to 4 
minutes, just given the panel before us. Well, I will ask you 
to take 4 but if you do 5, we will take extra time over here.
    Go right ahead.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. All right. Thank you, Madam Chairman.
    I welcome back Senator Warner. He and I have been on both 
sides of this issue because we served on the Armed Services 
Committee for many years together as well as both of us 
chairing this committee in the past. And on most things I agree 
with him.
    I want to welcome the other people who are here today. 
Obviously, we disagree, we differ on the credibility of the 
science used in the reports that we have read. But that is not 
the focus of today. What I would like to do in my focus today, 
and first of all I have to say, Madam Chairman, and you talked 
a little bit about the competition on the floor, I have to 
leave here at 11:10 a.m., so I will be doing it at that time.
    For the sake of this hearing, I am going to stipulate that 
the central finding in any reports that global warning poses a 
serious national security threat, I do not think it does, in 
fact it does not, but I will stipulate that it does for the 
purpose of this meeting, and also that the science is there, 
which I do not agree with.
    Actually, I say to my good friend Senator Warner, so much 
has happened since a year ago when you had your bill on the 
floor and since your retirement, in terms of the scientists 
that have come over who were on the other side of the issue, 
but let us assume, for the sake of this committee hearing, that 
all of that stuff is true.
    Now, what I am going to focus on is the link between 
developing American resources and American's national security. 
And I am going to explain why passing a cap-and-trade bill will 
not solve any of the legitimate issues that you identify in 
your reports.
    Let me be clear. Even if we experience catastrophic changes 
in climate, the Waxman-Markey bill and its soon to be Senate 
variant would do nothing to stop it. EPA Administration Lisa 
Jackson, and I am sure you all read about this, it happened 3 
weeks ago in this very room, in response to my question as to, 
you know, well if we were to pass the Waxman-Markey bill, would 
it have an effect of reducing CO<INF>2</INF> and she said no, 
it would not. In other words, unilateral action is not going to 
do it.
    Chip Kappenberger, who used to be with the University of 
Virginia and is now with New Hope Environmental Services, has 
recently confirmed Administrator Jackson's statement. In a 
quantitative analysis released this morning, he found that 
using IPC's own science, the Waxman-Markey would reduce global 
temperatures by less than one-tenth of one degree Fahrenheit by 
2050.
    This is kind of interesting because I can remember back 
when Al Gore was Vice President and he hired Tom Wigley, a 
foremost authority, a scientist, he said if all developed 
nations were to sign the Kyoto Treaty and live by their mission 
requirements, how much would it reduce temperature. His result 
was seven-one-hundredths of one degree Fahrenheit in 50 years. 
That is almost exactly the same thing that Chip Kappenberger 
said.
    So, if the Waxman-Markey does virtually nothing to affect 
climate, what would be the impact on energy security? I would 
say to Admiral McGinn and Captain Powers, in your testimony you 
discuss with compelling force that the United States needs to 
reduce dependence on foreign oil, particularly from hostile 
regimes. I could not agree more. I am with you on that. We have 
got to do that. There is a national security issue there.
    And I have argued for years that, for national security 
purposes, the United States must provide access to all forms of 
domestic energy supplies including wind, which we have a lot of 
in Oklahoma, one of the leaders in wind energy, but also solar, 
geothermal, nuclear, clean oil and natural gas. It is clear 
that we have the resources.
    According to a report by the Utah Mining Association, 
America's recoverable--this is very significant, I say to you, 
all three witnesses--America's recoverable oil shale resources 
are nearly three times as large as those in Saudi Arabia. The 
study concluded that utilizing U.S. oil shale deposits could 
provide America with the potential to be completely energy 
self-sufficient with no demands on external energy sources.
    So the big problem we have is the people, and many of them 
are right here at this table, who do not want us to go 
offshore, do not want us to exploit our own resources. And so 
we cannot do that. That makes us more dependent.
    I would conclude that if we were to pass something, which 
we are not going to do, but if we were to pass something close 
to the House bill, it would have the effect of making us more, 
not less, dependent upon other countries to run and defend this 
machine called America.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
  
    
    Senator Boxer. Thank you, Senator, very much.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, thank you very much, and I 
will ask for unanimous consent to put my entire statement in 
the record.
    Senator Boxer. Without objection.
    Senator Cardin. I want to welcome our panel. Just for a 
moment, I want to single out Senator Warner. We have a very 
distinguished panel, but it is really a pleasure to have 
Senator Warner back before our committee.
    Senator Warner has devoted his life to this topic. His 
entire life has been devoted to helping our national security 
and dealing with the environmental risks. He served with great 
distinction in the U.S. Senate and was our expert leader on 
national security issues.
    And Senator Warner, you understood the relationship between 
dealing with our environment and dealing with our national 
security. It is a pleasure to welcome you back to our 
committee.
    I agree with Senator Inhofe that we do have a security 
issue because of dependency on foreign oil. There is no 
question about that. We use 25 percent of the world's fossil 
fuels and we have 3 percent of the world's reserves of oil. 
And, quite frankly, we have given the oil industry plenty of 
acreage in order to explore the oil that we have. The problem 
is we do not have enough oil. We need to develop alternative 
and renewable energy sources, and that needs to be a part of 
our national security strategy.
    But it is also true that the global climate change has a 
direct impact on the security of America. We know that just a 
slight change in climate has a dramatic impact on the stability 
of many regions in the world. If sea level rise is increasing, 
we know people that live on the coastal areas are going to 
migrate, and that migration will cause instability among other 
counties.
    We also know that because of the change in the weather 
conditions, it will bring about droughts, it will bring about 
real concerns about feeding people in different regions in the 
world. That has a security concern about those regions. So we 
know about those concerns.
    And then perhaps the one area that I hope we all could 
agree on is the availability of drinking water, and so many 
areas--they are being affected because of the melts of the 
glaciers and the impact that is going to have on regional 
security. All of this affects the United States' interests.
    We are interested in stability in these regions for obvious 
reasons, but it also can put a stress on our own military and 
the demands of our own military as far as dealing with the 
potential instability in different regions in the world.
    So, we have a direct interest in dealing with global 
climate change from a national security perspective as it 
relates to the security of our resources, but also as it 
relates to the stability internationally and U.S. interests and 
what we may be called upon as far as our military is concerned.
    For all those reasons, Madam Chair, I am pleased that we 
are holding this hearing. I think you have a very distinguished 
panel that can help answer the questions as to why we need to 
deal with global climate change as a national security 
priority.
    [The prepared statement of Senator Cardin follows:]
                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland
    Chairman Boxer, thank you for holding this hearing.
    Research has shown an interesting correlation between traumatic 
climate events and political strife around the world. A study published 
in the November 2008 edition of the journal Science found geological 
evidence in Chinese caves that show extended droughts occurring right 
around the time when the Tang, Yuan and Ming dynasties were in decline. 
\1\ Even today, drought and famine are at the heart of much of the 
civil and political strife in several sub-Saharan African nations. 
Similarly, last year's cyclone in Myanmar killed tens of thousands of 
people and increased tensions between the ruling military junta and the 
citizenry.
---------------------------------------------------------------------------
    \1\ Pingzhong Zhang, Hai Cheng, et al. ``A Test of Climate, Sun, 
and Culture Relationships from an 1810-Year Chinese Cave Record,'' 
Science 322 (November 7, 2008).
---------------------------------------------------------------------------
    Climate scientists have predicted that global climate change could 
increase the frequency and intensity of extreme weather events like 
tropical storms, floods and droughts. Events like this can cause 
serious food shortages, foster the spread of diseases and lead to civil 
unrest.
    Food and water shortages in Afghanistan, Somalia, Sudan and 
Pakistan are a contributing factor to the civil unrest these countries 
are experiencing. The combination of humanitarian crises and Islamic 
extremists creates a growing threat situation for our national security 
including our troops deployed overseas. The impacts of climate change 
will only exacerbate this problem.
                      climate and water resources
    The common element in the climate crisis is water. Some regions of 
the world face the threat of rising sea levels, more intense storms and 
flood events. Myanmar is a case study of how real this threat is. A 
similar event in Bangladesh or Indonesia could take hundreds of 
thousands of lives and create millions of ``climate refugees'' seeking 
asylum in neighboring countries, where they may face persecution as 
ethnic minorities. The U.S. has national security interests to help 
impacted nations mitigate these threats.
    Separate issues accompany situations where water scarcity results 
from climatic changes. Changes in weather patterns that decrease 
precipitation cause extended drought, expand arid regions, and 
literally dry up freshwater supplies necessary for drinking water and 
agriculture. Warmer and dryer climates also diminish snowpack affecting 
downstream river flows. Droughts in vulnerable parts of the world can 
have a direct impact on food supplies and public health which can add 
to local and international tensions and increase demands for emergency 
assistance.
                        domestic energy security
    Our reliance on dirty fossil fuels gives OPEC nations indirect 
control of our economy. Last summer, the average price for gasoline 
topped out at more than $4 a gallon, and this was caused by growing 
global demand for oil from countries like China and India and because 
OPEC nations control the supply. We need to regain control of not only 
our energy sources but also our fuel usage.
    The United States consumes nearly 25 percent of the world's fossil 
fuels yet even the most liberal estimates say that we control or 
possess only about a 3 percent of the world's petroleum resources. This 
is not a problem we can drill our way out of. Diversification of our 
energy sources is critical to American energy and economic security, 
and the way to get there is to harness the Nation's abundant renewable 
energy and invest in abundant domestic alternative energy sources.
    However, we are naive to think that industry will move toward 
cleaner, diversified and domestic energy sources without regulation and 
incentives to do so. But domestic political leadership will lead to 
domestic corporate leadership.
                      u.s. leadership--conclusion
    The United States is a global leader in providing humanitarian aid 
to nations in need. Our generosity helps build trust and strength among 
our allies, and by helping maintain peace and stability in countries 
wrought by disaster also improves our national security.
    We should anticipate more international and domestic disaster 
situations arising from the impacts of climate change. That is why I 
support both international and domestic climate adaptation programs 
funded through a portion of the allowance auction proceeds.
    Reducing our carbon emissions, becoming the world's leader in 
renewable technology production and providing international climate 
adaptation funding to help countries plan and protect at risk 
communities facing the impacts of a changing climate are all policy 
solutions that demonstrate our commitment to lead the world in facing 
the climate crisis.

    Senator Boxer. Senator, thank you very much.
    Senator Bond.
    Senator Bond. Thank you very much, Madam Chair. But Senator 
Voinovich, were you here ahead of me?
    Senator Voinovich. I think I was.
    Senator Bond. I apologize.
    Senator Boxer. I am so sorry.
    Senator Bond. As much as I want to talk, I believe he was 
here first.
    Senator Boxer. I am so sorry. I had misinformation. We will 
switch you two around and put back the 5 minutes. Thank you.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you very much.
    First of all, I would like to welcome my good friend, John 
Warner, back here to the Senate. John, you and I have to sit 
down and talk about how it is on the outside once you leave 
this place because I am contemplating on doing that next year.
    Madam Chairman, I am certainly glad that the committee has 
decided to delay marking up this climate change legislation. 
The hearings that our committee has held on the issue have 
reinforced my concerns with the size and scope of the 
legislative options that Congress is considering.
    Any legislation that passes through the committee should 
both reduce our Nation's greenhouse gas emissions and make our 
Nation more energy secure. It should include provisions that 
allow us to fully utilize the domestic resources and 
responsibly increase our domestic production of oil and natural 
gas to relieve energy costs and strengthen our energy security.
    I have long tried to encourage the harmonization of our 
energy, environment, economy and national security. This is my 
eleventh year on this committee. Unfortunately, national 
security concerns have never been prominently considered during 
my 11 years on this committee. I consider what we have been 
doing a tail wagging the dog agenda, driven by the 
environmental part of this four-part harmonization--energy, 
environment, economy and national security.
    For years the gap in the United States between demand and 
domestic supply of oil has been widening. U.S. oil production 
has steadily declined since 1970 when it was nearly 10 million 
barrels per day to 4.9 million barrels today. But the U.S. 
consumed an average of 19.4 million barrels per day in 2008.
    With many of our domestic resources now off limits, we have 
been forced to seek energy abroad. In 1973, the U.S. imported 6 
million barrels per day of crude oil, or 34 percent. By 2008, 
these numbers had risen dramatically. Net oil imports were 9.7 
or 61 percent of our total liquid fuel use.
    In 2006, Hillard Huntington, Executive Director of Stanford 
University's Energy Modeling Forum, testified before the 
Foreign Relations Committee, of which I was a member at that 
time, and said ``The odds of a foreign oil disruption over the 
next 10 years are slightly higher than 80 percent.'' He went on 
to testify that if global production were reduced by merely 2.1 
percent, it would have a more serious effect on the economy 
than Hurricanes Katrina and Rita.
    These concerns led me to introduce the National Energy 
Security Act, along with Senator Dorgan. This bill expands 
development of domestic oil and natural gas and moves us toward 
sustainable clean energy production and use by streamlining the 
permitting of the most promising areas of the outer Continental 
Shelf, providing $50 billion in Federal loan guaranty authority 
for low carbon electricity including nuclear and advanced coal, 
and promoting the electrification of our transportation fleets 
so that by 2050, 80 percent of it would be electrified, and 
supporting something very important, a robust, reliable 
national grid.
    This legislation is based on a report created by the Energy 
Security Leadership Counsel, a group of business and military 
leaders, and I am sure some of the military people know who are 
on this committee, who have committed to developing long-term 
policies that will reduce U.S. oil dependence and improve 
energy security.
    The preamble of their report reads: Hostile state actors, 
insurgents and terrorists have made it their intention to use 
oil as a strategic weapon against the United States. Steadily 
rising global oil prices add to the danger by exacerbating 
tensions among consuming nations. Oil dependence, with its 
incumbent exporting of American wealth, exacts a tremendous 
financial toll on our country. Excessive reliance on oil 
constrains U.S. foreign policy and burdens a U.S. military, the 
protector of last resort for the global economy.
    I would be interested to know if the witnesses here today 
share some of these concerns that were in the preamble of this 
report that this distinguished group of people put together.
    Our problem today is, instead of considering this big 
picture, we are considering an overly complicated and partisan 
approach that would simply exacerbate the situation. Indeed, 
the financial burden that the Waxman bill places on the 
domestic oil industry will force the off shoring of U.S. 
refining capacity and jobs, leaving us at the mercy of foreign 
nations for refined gasoline supplies.
    I have talked to individual after individual. First of all, 
we have not been building any refineries. Now, we are finally 
doing it. With this legislation, forget any new refineries in 
the United States. They are going to move overseas. Right now, 
in India, they are building the biggest refinery in the world 
with the idea that we will pass this legislation, our guys will 
be forced overseas and we will start getting more oil, more 
refined oil, from India.
    We should be very, very concerned about this as a Nation. 
Our security is in deep jeopardy today, and we had better wake 
up.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Voinovich follows:]

                Statement of Hon. George V. Voinovich, 
                  U.S. Senator from the State of Ohio

    Madam Chairman, I am certainly glad that the committee has 
decided to delay marking up climate change legislation. The 
hearings that our committee has held on the issue have 
reinforced my concerns with the size and scope of the 
legislative options that Congress is considering.
    Any legislation that passes through the committee should 
both reduce our Nation's greenhouse gas emissions and make our 
Nation more energy secure. It should include provisions that 
allow us to fully utilize the domestic resources and 
responsibly increase our domestic production of oil and natural 
gas to relieve energy costs and strengthen our energy security.
    I have long tried to encourage the harmonization of our 
energy, environment, economy and national security. 
Unfortunately, national and security concerns have never been 
prominently considered in this committee: here we have a ``tail 
wagging the dog'' agenda driven by environmental extremists. As 
such, our Nation's reliance on foreign sources of energy has 
steadily increased.
    For years the gap in the United States between demand and 
domestic supply has been widening. U.S. oil production has 
steadily declined since 1970, when it was nearly 10 million 
barrels per day (BPD), to 4.9 million BPD in 2008. The U.S. 
consumed an average of 19.4 million BPD in 2008.
    With many of our domestic resources now off limits, we have 
been forced to seek energy abroad. In 1973, the U.S. imported 6 
million BPD of crude oil, or 34.8 percent of our total supply. 
By 2008, these numbers had risen dramatically: net oil imports 
were 9.7 million BPD, or 61 percent of our total liquid fuel 
use.
    In 2006, Hillard Huntington, Executive Director of Stanford 
University's Energy Modeling Forum, testified before the Senate 
Foreign Relations Committee that ``the odds of a foreign oil 
disruption happening over the next 10 years are slightly higher 
[than] 80 percent.'' He went on to testify that if global 
production were reduced by merely 2.1 percent, that it would 
have a more serious effect on the economy than hurricanes 
Katrina and Rita.
    These concerns lead me to introduce the National Energy 
Security Act along with Senator Dorgan. This bill expands 
development of domestic oil and natural gas and moves us toward 
sustainable clean energy production and use by streamlining the 
permitting of the most promising areas of the Outer Continental 
Shelf; providing $50 billion in Federal loan guarantee 
authority for low carbon electricity, including from nuclear 
and advanced coal; promoting the electrification of the 
transportation fleet; and supporting a robust, reliable 
national grid.
    The legislation is based on a report created by the Energy 
Security Leadership Council, a group of business and military 
leaders committed to developing long-term policies that will 
U.S. oil dependence and improve energy security. The preamble 
of their report reads:
    ``Hostile state actors, insurgents, and terrorists have 
made their intention to use oil as a strategic weapon against 
the United States. Steadily rising global oil prices add to the 
danger by exacerbating tensions among consuming nations . . . 
[O]il dependence, with its incumbent exporting of American 
wealth, exacts a tremendous financial toll on our country . . . 
[E]xcessive reliance on oil constrains . . . U.S. foreign 
policy and burdens a U.S. military . . . the protector of last 
resort for . . . the global economy.''
    I would be interested to know if any of the witnesses here 
today share these concerns. I think the threat posed to our 
national security is real and that the comprehensive bipartisan 
approach provided by Senator Dorgan and myself is the solution 
that Congress should be using.
    Instead, we are considering an overly complicated and 
partisan approach that would simply exacerbate the situation. 
Indeed, the financial burden the Waxman bill places on the 
domestic oil industry will force the off-shoring of U.S. 
refining capacity and jobs, leaving us at the mercy of foreign 
nations for refined gasoline supplies. This undercuts our 
national security interests and our economy.
    During a time when the national unemployment rate is at 9.5 
percent and the national debt is over $11.5 trillion, we should 
first do no harm to the economy when enacting climate change 
policy. A 1,400-page job killing ``Ruth Goldberg'' climate 
proposal is no path to recovery.
    That this bill will do little to address this global 
environmental issue and much to erode our competitive position 
in the world marketplace, our economy, and our national 
security interests is without dispute. This was confirmed by 
Administrator Jackson's recent statement before this committee 
that unilateral U.S. action ``will not impact world 
CO<INF>2</INF> levels;'' in a recent GAO report, which 
concludes that the bill could ``cause output, profits, or 
employment to decline;'' and a preliminary report by EIA that 
shows by 2030 annual losses in GDP could be as high as $465 
billion, with corresponding annual decreases in manufacturing 
output by as much as $642 billion, and a $272 billion hit to 
the pocketbooks of working families.
    Madam Chairwoman, I hope that we can work together in 
examining the true costs of any climate change legislation that 
might come before the Senate Environmental and Public Works 
Committee before we hamper the U.S. economy with altruistic 
goals through complicated unachievable mandates.

    Senator Boxer. Thank you so much.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman.
    If I can personalize for a moment. John, I have not seen 
you around. Where have you been?
    [Laughter.]
    Senator Lautenberg. You are one of the few members who are 
left of the venerated generation, and we miss you. We are 
pleased to see you here among the other distinguished 
colleagues, particularly you.
    Madam Chairman, as we research the consequence of just 
saying no and staying the course that we are on, we hear the 
alarm ringing loudly across our country. As we research the 
consequences of doing that, we see greenhouse emissions 
continue to rise at their current rates, global temperatures 
could increase by more than 11 degrees by the end of this 
century, sea level rise threatening families and communities 
who call the coastal areas of their homes; inhabitants of low 
lying areas in the Pacific are already seeking new homes on 
higher ground because their old homes are threatened and will 
soon be underwater.
    As people are displaced, they will compete for resources, 
for land, fresh water and food, and because of global warming, 
there will be fewer resources to fight over. For example, 
Himalayan glaciers that provide water to billions of people in 
China, India and Pakistan will recede. And with temperatures 
rising and water declining, crops throughout that volatile 
region and many others will wither and die. People around the 
world could face a terrible choice: fight their neighbors for 
the means to stay alive, or flee their homes and become climate 
refugees.
    According to the CIA's National Intelligence Counsel, as 
many as 800 million people or more will face water or crop 
scarcity in the next 15 years--15 years, setting the stage for 
conflict and breeding the conditions for terrorism.
    This is the future if we continue down the path of relying 
on dirty fuels like coal and oil and ignoring the dangerous 
consequences. And if we fail to change course, it is our 
children and our grandchildren who are going to suffer most 
from our negligence.
    Last month, the House of Representatives passed a landmark 
bill that could change these grim forecasts. It would reduce 
greenhouse gas emissions at a low cost and in a way that 
creates thousands of new clean energy jobs. The world's eyes 
are now on the Senate, and specifically on this committee, to 
pass a bill that moves our country away from the dirty, 
unstable sources of energy and toward clean, sustainable and 
efficient ones, and to stave off that life-altering 11 degree 
rise in temperature.
    Clean energy can create jobs, as it has in my home State of 
New Jersey. More than 2,000 clean energy companies now call New 
Jersey home, employing more than 25,000 people. Clean energy 
can reduce air pollution that causes asthma and cancer, 
reducing healthcare costs for all of us.
    And clean energy can strengthen our national security. As 
retired General Anthony Zinni has said, we will pay now to 
reduce greenhouse gas emissions today or we will pay the price 
later in military terms and that will involve human lives.
    We cannot afford to wait any longer. We have got to get to 
work, get past the no zone, and pass our clean energy bill.
    I thank you all for being here.
    Senator Boxer. Thank you very much, Senator Lautenberg.
    And now, it is Senator Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you, Madam Chair, for holding this 
hearing.
    I join in welcoming our former colleague, my long-time hero 
and leader, Squire Warner. He does not have to be sworn in for 
me to know that he is telling the truth. Unfortunately, today 
we see the truth in little different forms. But I believe that 
what he says is what he believes to be the truth. It is great 
to see him back.
    With respect to Waxman-Markey, unfortunately it will do 
little to stop foreign wars overseas. It will do little to help 
our climate. It will do everything to start U.S. trade wars 
that hurt U.S. workers at home and abroad.
    As our Ranking Member pointed out, the EPA Administrator 
confirmed recently that the Waxman-Markey bill will have no 
appreciable effect on world temperatures because EPA analysis 
shows that passing a U.S. cap-and-trade bill alone, without 
China and India taking similar action to reduce their own 
carbon emissions, will not halt the worldwide rise in carbon 
concentrations, and if you believe that they create temperature 
increases, temperatures will go up.
    With no halt to rising world temperatures, Waxman-Markey 
will do nothing, nothing, to address the threat to America's 
national security that military advisors might see from climate 
change. Waxman-Markey will do nothing to address climate as a 
threat multiplier for instability in some of the world's most 
volatile regions. Waxman-Markey will do nothing to avoid 
tensions to stable regions, nothing to prevent terrorism from 
worsening, and nothing to avoid dragging the United States into 
conflicts over water and other critical resource shortages.
    I would like to know whether any of the panelists 
specifically support Waxman-Markey that the House passed. We 
had a group of Governors testify last week, and when pressed, 
they refused to support the specifics of Waxman-Markey. I 
surmise we may have an Admiral join them this week.
    It is easy to see why. Waxman-Markey will kill 2.5 million 
U.S. jobs, even after including new green jobs. An Admiral 
knows that cutting off the arm of a sailor does not make the 
sailor stronger or fight better. Cutting off 2.5 million jobs 
from American's workers will not make America stronger. It will 
make us weaker and less secure.
    Waxman-Markey not only threatens our economic security at 
home with massive job losses, but also threatens our economic 
security by starting a new international carbon trade war.
    I met with a Chinese delegation, a high level delegation 
that came in town this week. I had conversations directly with 
the Vice Ministers for Commerce and Environment. They are very 
much concerned with carbon tariffs in the Waxman-Markey bill. 
They have no intention of enforcing radical limits on their 
carbon emission. They want to work with us, as they are, in 
finding cleaner ways to use energy. But they will not limit 
their ability to use fossil fuels to increase the well being of 
their citizens.
    And I am sure that China will not hesitate to retaliate 
with their own trade tariffs and sanctions in response to any 
U.S. climate sanctions. They already showed that when we put 
Buy America provisions in the misnamed stimulus bill. They had 
a Buy China response to it.
    A carbon trade war will hurt Missouri farmers who could no 
longer export crops overseas and manufacturing workers who 
could no longer export their products. All told, Missouri has 
nearly $13 billion in total exports at risk in a carbon trade 
war, and over $700 million in agricultural exports that could 
go unsold. Workers at 4,000 Missouri businesses that export 
overseas could face job losses, 3,600 of these in small or 
medium-sized businesses with under 500 employees.
    There are better paths to stabilize at-risk nations and 
reduce significantly our dependence on foreign oil. I am a co-
sponsor, with Senator Durbin, of the Water for the World Act to 
increase USAID and state capability to improve clean water. I 
believe this is the kind of smart power the United States can 
employ, putting sandals and sneakers on the ground to make life 
better for millions, avoiding the later need for boots and 
battleships.
    We support dramatic action to expand clean energy, nuclear, 
clean coal when ready, electric, plug-in and hybrid vehicles, 
biofuels, new cellulosic and algae-based ethanol fuels; even 
wind and solar where they make sense. And we need to expand our 
use of American resources here at home. Clean energy, American 
energy, not energy taxes, not lost jobs.
    Thank you, Madam Chair. I ask that my full statement be 
included in the record.
    [The prepared statement of Senator Bond follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Without objection. So ordered.
    Our next would be Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chair.
    To my leader, for the folks on the panel, I used to be a 
naval flight officer back during the Vietnam war, and our 
Secretary of the Navy at the time was John Warner. I have 
always referred to him as my leader. It is great to see you 
again. When I first came to the Senate, I referred to him as 
Mr. Secretary, and he referred to me as Lieutenant Carper. I 
have always been deferential to him and value him very much. He 
has been a great friend and mentor, and I am just delighted to 
see you back.
    To a real Admiral, not a Rear Admiral, but a real Admiral, 
Vice Admiral Dennis McGinn, it is very nice to see you. And Mr. 
Powers and Mr. Rivkin, thank you for joining us, too.
    I listened to my friend, also a recovering Governor, 
Senator Bond, talk about all the things that we need to do. He 
said we need more nuclear. I think we need more nuclear. He 
said we need more clean coal. We need more clean coal. He said, 
I think he said, we need more solar, we need more wind, we need 
to create more biofuels and maybe turn CO<INF>2</INF> emissions 
into wastes that go to feed biofuels, feed algae, stuff like 
that. We need all of those things.
    The remarkable thing to me is that if we are smart about 
putting together a piece of legislation that not only addresses 
security concerns that flow out of climate change, not only 
address the threats to our environment and so forth, but are 
really smart about it, we will actually create incentives to do 
all of those things that Senator Bond just talked about.
    Some of my friends like to talk about putting a tax on 
carbon. I do not think there are a lot of people who are going 
to vote for that. Most of the people I hear talk about it would 
not vote for it. But what we do need to do is put a price on 
carbon.
    I like to quote, and I have repeatedly, John Doerr, who sat 
right where Senator Warner is sitting today. John Doerr is a 
very successful entrepreneur from California who started a lot 
of companies, hundreds of companies, made a lot of money, 
created a lot of jobs. His advice to us as we focus on this 
issue of climate change is to No. 1, put a price on carbon, No. 
2, put a price on carbon, and No. 3, put a price on carbon.
    If we are smart, we will put a price on carbon. And we will 
put together legislation around it and a regulatory structure 
around it that will not create this tale of horribles that we 
keep hearing about, but will provide the ways to address, 
appropriately, our security needs, our environmental 
challenges, and most important, help us create a whole bunch of 
new jobs, to put people to work, to give us technologies that 
we can sell around the world.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    I would like to welcome all of those who are coming to 
share their thoughts with us, but a special welcome to my good 
friend, Senator John Warner. Senator, it is great to see you 
again. Thank you for being here.
    Madam Chairman, I agree that climate change is a national 
security issue, and the evidence that this is the case really 
is overwhelming. In a recent Reuters article dated May 30, 
2009, entitled Carbon Credit Schemes Will Draw Organized Crime 
According to Interpol, Peter Younger, an environmental crimes 
specialist at Interpol, was quoted as saying, in the future, if 
you are running a factory and you desperately need credits to 
offset your emissions, there will be someone who can make that 
happen for you. Absolutely, organized crime will be involved.
    Interpol has partnered with the U.S. Environmental 
Protection Agency to address this threat. They have created 
something called the Climate Change Crime and Corruption 
Working Group. The group's stated goal is to explore 
legislative restraints and potential loopholes that may 
potentially lead to the development of new crime areas with 
result to the issue of climate change.
    They have a Web site for people to go to and get more 
information and all that. I will put that into the record, 
Madam Chairman.
    Senator Boxer. Without objection. We will do it.
    Senator Barrasso. Thank you. As well as the article, if I 
may, Madam Chairman, from Reuters.
    Senator Boxer. Yes.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Thank you.
    As of now, two investigators with the EPA participated in 
this working group at Interpol. Interpol is the world's largest 
international police organization with 187 member countries. It 
facilitates cross-border police cooperation and supports and 
assists all organizations, authorities and services whose 
mission is to prevent or combat international crime.
    Interpol and the EPA are aware of the potential threat that 
cap-and-trade schemes can pose if taken advantage of by these 
elements. They recognize the dangers that carbon markets can 
lead to funding streams to international organized crime 
elements.
    These criminal elements are a threat to all nations. They 
traffic in weapons, explosives, fake IDs, passports, drugs, 
money laundering and human trafficking. Some are designated as 
terrorist organizations, including organizations in Colombia, 
the Russian mafia and the Mexican drug cartels that threaten 
our border. Carbon markets created by Waxman-Markey could 
become a boon to these and to fund these organizations.
    We should all be concerned because these groups are a 
threat to U.S. national security. Some even operate within our 
own borders. If we are to endeavor to create a carbon trading 
scheme here in the United States, we have to know the national 
security implications of such an approach.
    We need to know if Interpol's assessment is shared by other 
members of the intelligence community. How prepared are they to 
deal with this potential new funding stream for international 
crime organizations in the carbon markets?
    And it is for that reason, Madam Chairman, as Ranking 
Member of the Subcommittee of Oversight of this committee, I 
sent letters yesterday to the Director of National Intelligence 
as well as to the agency heads of the Central Intelligence 
Agency, the National Security Agency, the Securities Exchange 
Commission, the Environmental Protection Agency, the Department 
of Homeland Security and the Federal Bureau of Investigation.
    In those letters I ask, given that Congress is considering 
cap-and-trade legislation that would create carbon credit 
markets in the United States, whether those agencies agree with 
Interpol's assessment about the threats posed by international 
criminal organizations.
    I also ask what threats to U.S. national security would 
result if criminal or terrorist elements raised funds through 
carbon markets as Interpol has suggested. In the case of the 
EPA, I asked what are the current findings of Interpol's 
Climate Change Crime and Corruption Working Group since the 
organization is being headed by EPA investigators?
    To my knowledge, Madam Chairman, our committee has not been 
briefed on the activities of this working group. I believe that 
such a briefing should occur as soon as possible. I believe the 
committee needs to get the full picture from our intelligence 
and environmental agencies as to the potential threats posed by 
the manipulation of carbon markets.
    I have asked that the responses to my letters be provided 
in the next 2 weeks and I will share those responses with the 
members of this committee so that we may get a full picture of 
this national security issue before we vote on legislation to 
create carbon markets.
    Thank you, Madam Chairman.
    Senator Boxer. Thanks very much, Senator.
    And now we will go to Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair.
    I listened to my colleague's remarks with interest because 
my focus, I guess, is a little more basic, and that is first of 
all, the effects that climate change could have on our national 
security climate change itself. I was honored to speak with 
you, Vice Admiral McGinn, a bit about this in the last few days 
and was just struck by what I am sure we will hear today.
    Just when you look at--if you believe the scientists, and I 
do, the effect of the melting of the Himalayan glaciers could 
have on countries like Afghanistan and Pakistan, already 
incredibly volatile situations, the effect it will have if 
China starts running out of water.
    Those are real national security threats that we have to 
look at. I am no expert on that. So, in terms of the effect 
that climate change has on national security, I am very much 
looking forward to your testimony and hearing what you have to 
say about that because I think it is a whole different angle on 
this.
    Sometimes people can say, well, I do not really care what 
happens in these other developing nations. They are not mine. 
When I was in Vietnam with Senator McCain and Senator Graham, 
the No. 1 thing the Prime Minister there raised was climate 
change because they are on the ocean.
    But even if you say you do not care about what happens to 
those countries, we should care from a national security 
standpoint if what happens in those countries is going to 
affect the national security of the United States of America. 
So, I care very much about hearing about that today.
    The second thing that I care about is the effect that this 
reliance on foreign energy has on our own country. Last year, 
the National Intelligence Counsel completed a classified 
assessment titled The National Security Implications of Global 
Climate Change Through 2030. These were consensus findings of 
key, 16 U.S. intelligence agencies. Again, this was during last 
year, and the last time I checked, that was during the Bush 
administration.
    The assessment explores how climate change could threaten 
U.S. security in the next 20 years. They talk about the 
political instability, the mass movements of refugees, 
terrorism, conflicts over water, as you mentioned, Vice Admiral 
McGinn, with China. The assessment also indicates that 
additional stress on resources and infrastructure will 
exacerbate internal state pressures and generate interstate 
friction through competition for resources or disagreement over 
responses and responsibility.
    If there is one thing that all Americans, whether they are 
Republicans or Democrats or Independents, can agree on, is that 
our Nation relies too much on foreign energy and that this 
reliance puts our Nation at a security risk.
    The 1970s demonstrates our Nation's vulnerability. I was 10 
years old in 1970, but I remember that decade and the lines of 
people when OPEC decided to reduce the global oil supplies. 
Americans were forced to line up their cars at gas stations 
across the country.
    Over 30 years later, Americans import more oil than ever. 
We import nearly 5 billion barrels into this country and send 
hundreds of billions of dollars a year to foreign countries. 
Now, we know that it is OK to have those kinds of relationships 
with Canada. We know it is OK to have them with our allies. We 
are not going to say no to importing all foreign oil.
    But when we look at some to the countries where we rely on 
our energy, countries that we would rather not be dealing with, 
that put us at risk if they cut off our supply, we know that we 
have to be producing our own homegrown energy.
    And we know that it is going to have to be a comprehensive 
strategy. It is going to have to include things like biofuels, 
which have been cutting edge in our State, and we are looking 
forward to developing the next stage of biofuels, which is 
cellulosic. It is going to be nuclear, it is going to be 
everything from geothermal to hydro to the cutting edge work 
that is being done with wind and with solar. We know it should 
be comprehensive, and I think there is bipartisan agreement on 
that, including some increased drilling in our own country.
    But that being said, if we just turn our heads and say, oh, 
this hearing should be about the national security implications 
of cap-and-trade, I would like to be a little more basic here 
and focus on what are the national security implications if we 
start losing glaciers so that these developing countries that 
we are already trying to keep very instable governments in 
place become ever more instable.
    What are the effects in the Mideast? What are the effects 
if we become more and more dependent on foreign oil? That is 
what I hope this hearing will be about.
    Thank you very much.
    Madam Chair, I yield the floor.
    Senator Boxer. Thank you very much, Senator.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Madam Chairman.
    Let me welcome Senator Warner, especially, and the entire 
group of witnesses. I look forward to that.
    We have a broad spectrum of opinion here about climate 
change, as Senator Warner will remember. Some do not believe it 
is much of a threat; some are ready to jump off the cliff. My 
view of it is that I am convinced enough that I think we ought 
to buy some insurance, and we ought to do something about it.
    So, I do not want to argue about climate change today. I 
want to concede the point. The questions that I will have, when 
my turn comes, will be more about if climate change is the 
inconvenient problem, then I want to be talking about what 
appears to be the inconvenient solution--nuclear power.
    Some on the other side have said, well, the Republicans do 
not have any ideas. Well, all 40 Republican Senators have 
endorsed No. 1, building 100 nuclear plants in the next 20 
years. Nuclear is 70 percent of our carbon-free, pollution-free 
energy, and that is the number that we built between 1970 and 
1990, and we can do it again.
    Two, we endorse the idea of doing all we can to electrify 
half of our cars and trucks, thinking that is our fastest and 
best way to reduce our consumption of foreign oil by about one-
third. Three, we support offshore natural gas exploration. It 
is low carbon. And oil, we ought to use less of it, but use 
more of our own.
    And finally, we support doubling energy research and 
development on a series of mini-Manhattan Projects to try to 
look at these alternatives in renewable energies and see if we 
can make them cost competitive and reliable while we are doing 
the other things that we already know how to do, such things as 
making solar costs competitive. In the TVA region today, it 
costs four or five times what other things do. And making 
electric batteries better, and green buildings, and finding 
ways to re-use nuclear fuel in the safest and best way, even 
fusion on down the road.
    So, my questions are going to be, we have a distinguished 
group of military people here, a former Secretary of the Navy. 
What if you were assigned, in a strategic session, we have got 
a problem here and we need to build 20 percent of our 
electricity from pollution-free, carbon-free energy.
    Someone might come up with a plan and say, well, let us use 
biomass, sort of a controlled bonfire. Since the wind does not 
blow in Tennessee and Virginia, that is what they tell us we 
can use. You might say, well, you would have to forest an area 
the size of the Great Smoky Mountain National Park in order to 
get the equivalent of one nuclear power plant.
    They say, well, let us use solar. And you might say, well, 
that is very promising, and we hope to use it one day; it has 
strategic advantages, but it is four to five times the cost of 
other electricity in the TVA region, and you know, to equal a 
1,000-megawatt nuclear power plant you would have to cover, oh, 
30 square miles.
    Then someone will surely say, let us build wind turbines. 
We, in effect, we do not have a clean energy policy in the 
United States or ever a renewable energy policy. We have a 
national windmill policy. We have the President saying we need 
increased--20 percent of our electricity needs to come from 
wind turbines. We are spending--the Congress has appropriated 
nearly $30 billion in subsidies over the next 10 years for wind 
developers. It is considerably higher than the subsidies for 
all other renewable energy.
    The Secretary of the Interior met this week with the wind 
turbine makers, and they said, let us make it 20 percent of our 
electricity. Well, if you are thinking about that in a 
strategic way, A, it is more expensive. That is 130,000 to 
180,000 wind turbines and all the transmission lines that go 
with them, which would cover an area the size of West Virginia 
and only be available one-third of the time. So, would that 
meet our strategic objectives?
    Then you can say, well, our other option is take the 
technology we invented and that France is using, 80 percent of 
its electricity is nuclear power, and this is attracting jobs 
from Spain, which has more expensive electricity, is has more 
expensive electricity, it has among the lower carbon emissions 
in the European Union. Or look at China, building more nuclear 
plants than all the rest of the world put together with our 
help, India building them with our help, Japan building one 
every year. We have not built one in 30 years.
    So, would you not make a military judgment that, while we 
figure out all of the renewable and alternative energies, which 
are promising and intriguing, why are we not giving the same 
kind of attention to building 100 nuclear power plants in the 
next 20 years? We invented the technology, we know how to do 
it, and would it not be the fastest way to deal with, and maybe 
the only way to seriously deal with, global warming in this 
generation?
    Thank you, Madam Senator.
    Senator Boxer. Thank you very much, Senator.
    We will hear from Senator Udall, then Senator Whitehouse 
unless we have an intervening, and then we will move on.
    Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Madam Chair. I would like to put 
my opening statement in the record and just be very brief.
    Senator Boxer. Without objection.
    Senator Udall. Senator Warner, it has not changed much, has 
it, in terms of the speeches and you not getting to talk here 
quickly? I wonder what it feels like on the other side there.
    So, I am going to be very, very brief. I just want to say 
to you, and I am hoping that you being able to speak and me 
giving up my time to you, that you may be able to persuade some 
of your former colleagues on the other side of the importance 
of doing climate change legislation.
    I know that you were very bold and very courageous when you 
stepped out and you did, with Senator Lieberman, a piece of 
legislation. And I know from traveling on a river with you and 
Senator Worth in the West that you were interested in climate 
change a long time ago.
    We were with one of the top climatologists, a fellow by the 
name of John Fierer, and we went down a river and he explained 
to us what was going to happen in terms of the Western 
landscape and how it was twice as hot and we would see those 
pine trees disappear and things like that.
    So, I am going to yield back the rest of my time. I may 
only be able to be here until a little bit before 11 a.m., so 
hopefully you can speak and persuade some of the folks on the 
other side of the aisle that this is important and it is on our 
national security interest. And then, we get it done.
    So, thank you very much, and I yield back.
    [The prepared statement of Senator Udall follows:]

                     Statement of Hon. Tom Udall, 
               U.S. Senator from the State of New Mexico

    It is well known and often repeated that the U.S. imports 
nearly 70 percent of its oil, consumes 25 percent of global 
supply, and has only 3 percent of its reserves.
    As a result, our oil dependence is fully recognized as a 
national security problem. However, we are only beginning to 
realize that we face a fate worse than oil dependence--global 
oil scarcity.
    Today, global reserves are about 1.2 trillion barrels, and 
the world uses about 85 million barrels every day. If 
consumption and supply stay constant, the world has less than 
40 years left of supply. With supply peaking and demand 
accelerating, it could be much less than 40 years. Major oil 
fields are declining, and the International Energy Agency 
estimates we need to replace more than 50 percent of global 
production--45 million barrels per day, equal to 4 new Saudi 
Arabias--just to tread water.
    Claims of vast oil shale deposits in the U.S. and worldwide 
do not recognize that these are not counted as reserves because 
the vast amounts of them have proven to be unrecoverable 
economically. In fact, it appears likely that more energy would 
be required to recover the oil shale than contained in the oil 
shale. It is also a problem that 3 barrels of water are 
required to recover 1 barrel of oil shale.
    And of course, every new gasoline powered vehicle on the 
road in China or India makes treading water on global oil 
supplies that much harder.
    Many oil industry experts believe balancing future supply 
and demand is impossible given the geologically finite supply 
of oil and the dysfunctional politics and economics of oil-rich 
nations. More than 75 percent of the 1.2 trillion barrels of 
global reserves are controlled by foreign national oil 
companies that do not operate under market principles.
    In 2008, the U.S. spent $475 billion on foreign oil 
imports. That works out to around $4,000 per American family in 
1 year. Most experts expect prices to rise over the coming 
years, increasing this foreign oil tax on U.S. consumers. For 
comparison, that cost is over 20 times more than the estimated 
cost of the House American Clean Energy Security Act.
    Given these figures, and our testimony today, it is clear 
that legislation to provide clean energy incentives to reduce 
foreign oil dependence does not cost the U.S.--it saves both 
money and lives. The Senate must urgently consider legislation 
to achieve leadership in the next generation of clean energy 
technology, reduce our dependence on foreign oil, and prevent 
the catastrophic impacts of global warming.

    Senator Boxer. Thank you very much.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. I am going to follow the good example 
of my colleague, Senator Udall, and simply welcome my friend 
Senator Warner here. We miss you, John.
    Senator Warner and I served together on the Intelligence 
Committee during the time that we overlapped. He was a very 
distinguished and senior member of that committee. It was 
during that time that the national intelligence estimates by 
the then Bush administration national security officials 
chronicling the hazards and risks that we face from climate 
change came out. I know he was instrumental in getting that 
report done.
    I just want to welcome him back and let him know what a 
good thing it is to see him back in the institution to which he 
brought such luster.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    We are getting to our witnesses. I want to put two, unless 
there is objection, two documents in the record because Senator 
Bond mentioned the study, I think it is the Heritage 
Foundation, he did not mention that, that says there will be a 
loss of 2.5 million jobs. If it is another one, then it is 
another study. Do you know the name of the study?
    Senator Bond. [Remarks off microphone.]
    Senator Boxer. The National Black Chamber of Commerce study 
of 2.5 million jobs lost. And I am putting in the record the 
Pew Charitable Trust Study which shows that the clean energy 
jobs have been the one bright spot in this economic recession, 
both in California and in all 50 States.
    [The referenced Pew study follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Boxer. Then, I wanted to also say to put in the 
record this page 10. This is to Senator Voinovich who said we 
never talked about national security. The very first thing when 
I was so honored to take the gavel of this committee is put 
together this book called Voices of the Senate on Global 
Warming. In the introduction, on page 10, we talk about the 
U.S. Department of Defense-sponsored report and the 
implications on National Security. So, I am going to put that 
page into the record.
    [The referenced information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Senator Boxer. And with that, Senator Warner, let me tell 
you that we have checked with Senate counsel, sir, and, even 
though you have been insisting that you be sworn in, we do not 
want to swear you in, they said it is absolutely unnecessary.
    Senator Inhofe. Madam Chairman----
    Senator Boxer. So, I want you to please feel comfortable 
with that.
    Senator Inhofe. Let me add this into the record----
    Senator Boxer. Can I just do this? But we will put that in.
    Senator Warner. I will abide by the wishes of the Chair and 
the distinguished Ranking Member. The rules require it, but if 
the counsel wants to waive it, that is fine by me and let us 
get one with our----
    Senator Boxer. Yes, we want you to feel totally comfortable 
in that. Please sir, go right ahead.

       STATEMENT OF HON. JOHN WARNER, FORMER U.S. SENATOR

    Senator Warner. Well, I would like to observe, and thank 
you for the heartfelt comments by so many of you here as I 
return to this room which I think is, Senator Inhofe, I think I 
was here 22 years and you 20 years in this room, and all of the 
magnificent leaders that we had in the course of those years, 
our beloved friend, Mr. Whitehouse, John Chafee, and I could go 
on and on. You bring, the current leadership, you carry on the 
traditions that our forebears, like Pat Moynihan and others 
had, in the good work of this committee.
    I frankly am very impressed with the opening statements 
that have been made. There is a perception that the Senate is 
not doing much on climate change. This hearing dispels that by 
the opening statements.
    Each of you, while you have your strong differences and 
differences of opinion, you have recognized the magnitude of 
the problem facing the Congress of the United States, and now 
in the lap of the U.S. Senate, of trying to come to grips with 
fashioning a piece of legislation, if that is achievable, to 
help alleviate the problems that I think we all agree on. And 
there are some problems out there.
    I will tell you what is the driving motivation for me. I 
think you said it, Senator Lautenberg. You referred to the fact 
that when I left, there were only five of us that had served in 
World War II. You and I served as enlisted men. Here, a half-
century later, those young men and women in uniform that 
respond to the orders of the Commander in Chief, the President 
of the United States, to go beyond our shores in the great 
traditions of this country, 200-plus years of tradition in this 
country, to help those people less fortunate than ourselves who 
become victims of situations that imperil their lives and their 
freedom.
    This country is going to go on doing that. And I think 
there is a building base of evidence that global warming is 
contributing to much of the instability in the world today, 
particularly the very fragile sovereign nations, which as a 
consequence of global climatic changes, do not have either the 
water or the energy or the food to meet the basic needs of 
their people. And that sovereignty falls, and into that vacuum 
so often come individuals and groups who have views totally 
antithetical to the free world.
    So I come back, and I am here to speak on behalf of those 
young people and say they are standing at the ready, the same 
as you and I and other generations have throughout the history 
of this country, to respond to the orders of the Commander in 
Chief.
    Our mission is to determine, through the legislative 
process and other processes, what we can do to try and lessen 
the degree to which global climatic changes cause situations 
which require the United States and other nations to respond to 
help others.
    You will find no greater supporter of nuclear energy than 
this humble soul. If I look back on the fortune I have had in 
my career, I was Secretary of the Navy and Undersecretary for 
over 5 years. At that time, we had close to 100 nuclear plants, 
largely operating at sea, but nevertheless some shore 
installations where we did our training and experimentation.
    We are fortunate, and I say this simply because of the 
safety rules that we had, of the technology that we have had, 
that we did not have incidents of any really life threatening 
nature throughout that period or throughout the period of the 
history of the Navy.
    One submarine is lost. It is still a mystery. We do not 
know whether or not that was occasioned by any malfunctioning 
as occasioned by a nuclear plant. But certainly, on the shore 
installations and into the ports all across America which 
welcomed our submarines and ships; we had no problems.
    I think that is a solid precedent for arguing today to 
return, as you have said Senator Alexander, to a greater 
reliance on nuclear energy to resolve the climate change 
dilemmas.
    I thank you for--I do have to mention that I am here under 
title 18 section 207 which expressly allows the committee to 
have before it a retired Senator. I want to comply with the 
rules because the alternative to the rules is not very 
pleasant. So I wish to do it.
    [Laughter.]
    Senator Warner. I came to this effort to try and work on 
climate change through the combined work in this committee and 
in our committee, Senator Inhofe, of the Armed Services 
Committee.
    I do not know if you remember, Senator Inhofe, but in 2008, 
I was Chairman and Senator Clinton--I remember it was right in 
this room--Senator Clinton and I were talking one day, and we 
decided that we would put something in the Armed Services 
Committee bill to begin to energize the Department of Defense 
toward looking at the problem occasioned by global climatic 
changes.
    And so in the 2008 bill, and I would like to submit that 
statute for the record for ease of reference.
    Senator Boxer. Without objection.
    Senator Warner. I should have appended it to this 
statement.
    [The referenced information was not received at time of 
print.]
    Senator Warner. We put in the legislation saying to the 
Department, begin to look at this situation, begin to do the 
planning, and see how that might affect the future roles and 
missions of the men and women of the Armed Forces.
    In 2008, Secretary Gates came out with this statement: We 
also know that over the next 20 years and more certain 
pressures, population, resource, energy, climate, economic and 
environmental, could combine with rapid cultural, social and 
technological change to produce new sources of deprivation, 
rage and instability.
    He marched off. And what I have put in there in the first 
few pages of my statement, and Madam Chairman, Ranking Member 
and members of this committee, this has given me the best 
opportunity I have had thus far to alert you to all of the 
wonderful things going on in the Department of Defense toward 
addressing these issues.
    I set it forth in here, by virtue of statements by people 
from the Department that I personally called, spoke with them, 
and solicited those statements for the benefit of this 
committee. I worked with many of them [unintelligible] 
elsewhere as we discussed, together with an enormous number of 
very competent non-profit organizations who are addressing 
specifically this issue, the correlation between our national 
security, our forthcoming new energy programs, and the 
complexities of climate change.
    So, I just want to be brief. I put it all in here for easy 
reference for you to look at. And there it is. I do hope that, 
I think the wisdom of the Senator leadership, largely Senator 
Reid, to bring together the confluence, the recommendations of 
six committees, I fervently urge that the Chair and perhaps 
you, Senator Inhofe, could look into whether or not our 
committee, the old Armed Services Committee on which I served 
30 years and as its Chairman on several occasions, if that 
committee could not join with the six and put forth the 
perspective.
    Because it is that young person in uniform that goes out to 
help solve the problem by orders of the Commander in Chief. So 
I do believe the Department should put on the record the many 
things that it is doing now, give it an opportunity to meet 
this issue, and try to work with the Congress of the United 
States to prepare these things.
    So I will close my statement by saying that I do hope that, 
in the course of questions, I can amplify just a little bit on 
the need to being in the Armed Services Committee to be the 
seventh member of this panel.
    I yield the floor, and I thank you for the courtesy of the 
committee.
    [The prepared statement of Senator Warner follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Boxer. Well, we are so grateful to you for being 
here with us today, Senator. Everyone sitting up here has such 
great affection and admiration for you, regardless of where we 
stand on this issue. And I thank you so much.
    I had the honor of hearing Admiral McGinn yesterday speak 
to some of us about this issue. At this point, I have been 
called to the Senate floor for the debate on the Highway Trust 
Fund. So, I am going to hand over the gavel and everything that 
goes with it to Senator Cardin, who will be in charge.
    Thank you to the rest of the panel, and I will see 
everybody on the floor later.
    Senator Cardin [presiding]. Well, thank you, Madam Chair.
    We will now hear from Vice Admiral Dennis McGinn, USN, 
Retired, Member, Military Advisory Board, Center for Naval 
Analyses.
    Senator Inhofe. Mr. Chairman, before you do that, I would 
like to submit for the record from the Fertilizer Institute. I 
meant to do that before.
    Senator Cardin. Without objection. It will be included in 
the record.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Cardin. Admiral McGinn.

STATEMENT OF DENNIS McGINN, VICE ADMIRAL, U.S. NAVY (RETIRED); 
   MEMBER, MILITARY ADVISORY BOARD, CENTER FOR NAVAL ANALYSES

    Mr. McGinn. Thank you.
    Mr. Chairman, Ranking Member Inhofe, ladies and gentlemen, 
distinguished members of the committee, it is an honor to 
appear before you today to discuss this critically important 
topic of climate change and national security.
    Since early last year, I have had the privilege of serving 
with some of our Nation's most distinguished and senior retired 
military leaders on a CNA Military Advisory Board which 
produced two reports focused on the very topic of this hearing. 
The first examined the national security threats of climate 
change, and the most recent analyzed the national security 
threats of America's current energy posture.
    To begin, I want to recognize what currently, I believe, 
weighs most heavily on American's minds. We are in the midst of 
the most serious financial crisis of our lifetimes. After a 
year of examining our Nation's energy use, it is clear to all 
members of our Military Advisory Board that our economic, 
energy, climate change and national security challenges are 
inextricably linked.
    Our past pattern of energy use is responsible in no small 
measure for our economic situation today. If we do not 
adequately address our Nation's growing energy demand and 
climate change now, future financial crises will most certainly 
make this one look like the good old days.
    Our weakened national and global economy has temporarily 
reduced the demand and cost of oil. However, this recession 
will end, and the volatile cycle of ever higher fuel prices 
will most surely return.
    Global population growth and projected per capita increase 
in energy consumption over the next 20 years will make fossil 
fuel supply and demand curves divergent. Oil is already 
becoming more difficult and expensive to produce. And as a 
Nation that uses 25 percent of the world's oil every year while 
owning less than 3 percent of known reserves, we cannot drill 
our way to sustained economic security and independence.
    Without bold action now to significantly reduce our 
dependence on fossil fuels, our national security will be at 
greater risk in the future. Fierce global competition and 
conflict over dwindling supplies of fossil fuels will be a 
major part of the future strategic landscape. Moving toward 
clean, independent domestic energy choices lessens that danger 
and significantly helps us to confront the serious challenges 
of global climate change at the same time. Because these issues 
are so closely linked, solutions to one affect the others.
    In 2007, the Military Advisory Board produced a report 
entitled ``National Security and the Threat of Climate 
Change.'' Its principle conclusion was that climate change 
poses a serious threat to America's national security by acting 
as a threat multiplier for instability in some of the most 
volatile regions of the world, likely dragging, as Senator 
Warner so ably pointed out, the United States and our young men 
and women into conflicts over water and other critical resource 
shortages.
    Climate change is different from traditional military 
threats because it is not defined by a specific enemy or hot 
spot to which we are trying to respond. It is going to affect 
every country and every person in the world in different ways, 
but all at the same time in the future.
    There is a lot of discussion, and we heard some of it here 
today, about whether or not climate change is real, and if it 
is, can we really do anything about it as the United States?
    As military professionals, we were trained and, I must say, 
learned by hard experience, to make decisions when faced with 
threatening situations even when they were defined by ambiguous 
information. We based our decisions on trends, indicators, and 
warnings because waiting for 100 percent certainty during a 
crisis can produce disastrous results. And in carefully 
considering the threat of climate change to our national 
security, the trends and warnings are clear.
    So what should we do as a Nation? First, we need to 
recognize, as I said before, that economics, energy security, 
climate change and our national security are all inextricably 
linked. Next, we need to carefully avoid the temptation to 
ignore these connections and then only take small steps to 
address narrow issues. That is because large, interconnected 
security challenges require bold, comprehensive solutions.
    And here I would say that the United States has both the 
ability and the responsibility to lead. If we do not make 
changes, other nations will not. And they will use our own 
inaction as an excuse for them to continue on a business as 
usual path.
    The Military Advisory Board at CNA recently examined our 
national energy posture and released a report this May entitled 
``Powering America's Defense: Energy and the Risks to National 
Security.' This report clearly found that America's energy 
posture constitutes a serious and urgent threat to national 
security, militarily, diplomatically and economically.
    Our report finds that not just foreign oil but all oil, and 
not just oil but all fossil fuels, pose significant security 
threats to the military mission and to the Nation. And most 
importantly, are exploitable by those who wish to do us harm.
    Our growing fossil fuel reliance jeopardizes our military 
and exacts a huge price tag in dollars and lives, cripples our 
foreign policy, weakens U.S. international leverage and 
entangles the United States with hostile regimes. It also 
undermines, as I mentioned before, our economic stability.
    The U.S. pattern of energy usage in a business as usual 
manner creates an unacceptably high threat level from a series 
of converging risks: markets for oil shaped by finite supplies, 
increasing demand and rapidly rising costs, growing competition 
and conflict over diminishing fuel resources, and 
destabilization driven by climate change in virtually every 
region of critical importance to the United States.
    Unless we take steps now, not later, to prevent, mitigate 
and adapt to these challenges, rising energy demand and 
accelerating climate change will lead to an increase in 
conflicts and an increase in conflict intensity. And most 
important, will place an avoidable and unacceptable burden on 
our young men and women in uniform, now and in generations to 
come.
    Some may be surprised to hear former Generals and Admirals 
talk about climate change and green, clean energy. But they 
should not be. In the military, we learned early that reducing 
threats and vulnerabilities is essential well before you get 
into harm's way. That is what this discussion is all about.
    Our Nation requires diversification of energy sources and a 
serious commitment to energy efficiency and renewable energy of 
all forms. Not simply for environmental reasons, but for 
national security reasons.
    We call on the President and Congress for visionary 
leadership and a long-term commitment to achieve energy 
security in a carbon constrained world. Without swift and 
serious action, the United States will continue barreling 
headlong toward a future of conflict, less security, and a 
greatly diminished quality of life.
    The challenges inherent in this suite of issues may be 
daunting, particularly at a time of economic crisis, but our 
experience informs us there is good reason for viewing this 
moment in history as an opportunity for the United States. We 
need not exchange benefits in one dimension for harm in 
another. In fact, in our analysis, we have found in considering 
these interlinked challenges that the best approaches to 
energy, climate change and national security may be, in many 
cases, one and the same.
    Mr. Chairman, Senator Inhofe and members of the committee, 
if we act with boldness and vision now, future generations of 
Americans will look back on this as a time when we came 
together as a Nation and transformed a daunting challenge and 
worry into an opportunity for a better quality of life and a 
much more secure future for our world.
    Thank you, Mr. Chairman, Senator Inhofe, and I look forward 
to your questions.
    I request that my full statement be submitted for the 
record.
    Senator Cardin. Without objection, your full statement will 
be included in the record.
    [The prepared statement of Mr. McGinn follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Cardin. Admiral McGinn, we thank you very much for 
your service and your testimony here today.
    Our next witness is Jonathan Powers, Retired U.S. Army 
Captain and Chief Operating Officer, Truman National Security 
Project.
    Mr. Powers.

  STATEMENT OF JONATHAN POWERS, CAPTAIN, U.S. ARMY (RETIRED); 
   CHIEF OPERATING OFFICER, TRUMAN NATIONAL SECURITY PROJECT

    Mr. Powers. Thank you.
    Chairman, Ranking Member Inhofe, members of the committee, 
ladies and gentlemen, I am honored to appear today with this 
distinguished panel.
    I am Jon Powers, and I am the Chief Operating Officer of 
the Truman National Security Project. The Truman Project is 
working to raise awareness between the connections of climate 
change and national security.
    As a former U.S. Army Captain and Iraq veteran, I 
understand firsthand the challenges our national security 
apparatus will face when dealing with this growing threat. It 
is important that Americans understand the threat and ensure 
our leaders address the challenge while setting the standards 
for others to follow.
    Over the course of my time in the military, I learned 
incredibly valuable lessons. On my first day with my unit, my 
Platoon Sergeant grabbed me by my lapels, dragged me around to 
the side of the motor pool, and he said, sir, there are two 
types of leaders in the military, those who lead by rank and 
those who lead by example. The soldiers will follow those who 
outrank them. But they want to follow those that set the 
standard, set the example.
    For too long, our Nation has been leading on climate change 
by rank, and it is time we begin to lead by example. America is 
at a critical point, and our security relies heavily on how we 
address this growing threat.
    The Center for New American Security points out that 
climate change may not be a threat that soldiers can attack and 
defeat, but it is likely to affect the safety and prosperity of 
every American.
    The threat to global stability is both serious and urgent. 
Climate change will increase the frequency and intensity of 
storms and droughts and decrease the availability of drinking 
waters. When Indonesia was hit by a massive tsunami in 2004, 
our military responded with aid, ships, planes, helicopters, 
costing $5 million per day, and only the U.S. military had the 
capacity to respond.
    If the occurrence of such storms increases, the demand on 
the U.S. to respond will also increase. This matters because 
Indonesia is the world's most populous Muslim country, and U.S. 
efforts dramatically improved the U.S. image among Indonesians. 
This is a major accomplishment in America's fight against 
Islamic extremism.
    Then there are the dangers of increased drought and 
decreased drinking water. Lake Chad, formerly one of Africa's 
largest fresh water sources, is shrinking to 5 percent of its 
original volume. The fight over scarce resources such as water 
is already happening in destabilizing states like Sudan and 
Somalia where extremist groups target failing governments.
    Climate change will also hit us here at home. The IPCC 
estimates that Latin America will see 50 percent of 
agricultural lands undergo desertification and salinization in 
less than 50 years. You can imagine what this will do to 
immigration challenges in North America.
    If we wish to fight climate change, we must attack the 
problem at its source: fossil fuels. America's reliance on oil 
is an Achilles heel that the enemies use against us.
    Al Qaeda has called on its supporters to attack oil 
facilities and infrastructures throughout the Middle East. 
According to the Oil and Gas Terrorism Monitor, the number of 
attacks increased from less than 50 a year before September 11, 
2001, to 344 by 2006. It is imperative that we develop energy 
alternatives that will protect us against these threats.
    We are also propping up the economies of some unsavory 
regimes. Based on Truman Security Fellow's analysis of 2008 
production estimates, for every $5 rise in the price of a 
barrel of oil, Putin's Russia receives more than $18 billion 
annually, Ahmadinejad's Iran an additional $7.9 billion 
annually, and Chavez's Venezuela an additional $4.7 billion 
annually.
    And we are depleting our own financial resources. DOD is 
the largest energy consumer in the Nation. According to CNA's 
most recent report, a $10 rise in the price per barrel will 
cost DOD more than the entire annual procurement budget for the 
Marines.
    When the price of oil doubled from $30 in December to $65 
today, this had a tremendous impact on both our military's 
bottom line and our Nation's economic security. Goldman Sachs 
predicts that by 2010, crude oil will hit $100 per barrel. Many 
economic experts suggest the continued rise in oil prices may 
cause a double dip recession.
    OPEC's leadership has the ability to help relieve this 
economic stress. But do we want to leave our national security 
in their hands?
    I believe the American people want us to take our security 
in our own hands. We must establish policies that will 
seriously and urgently reduce the threat of climate change, 
reduce our dependency on oil, and provide clean energy 
incentives. This will allow a recovering economy to focus its 
investments in clean, domestic and safe energy.
    This committee will play a critical role in establishing an 
America that leads by example in developing domestic 
legislation that will protect our environment and ensure our 
national security.
    Thank you.
    [The prepared statement of Mr. Powers follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Senator Cardin. Captain, thank you very much for your 
testimony.
    We will now hear from David Rivkin. Mr. Rivkin is a partner 
at Baker & Hostetler and is Co-Chairman of the Center for Law 
and Counterterrorism at the Foundation for Defense of 
Democracies, and a Contributing Editor of National Review 
Magazine.
    Mr. Rivkin.

 STATEMENT OF DAVID B. RIVKIN, JR., PARTNER, BAKER & HOSTETLER 
 LLP; CO-CHAIRMAN, CENTER FOR LAW AND COUNTERTERRORISM AT THE 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Rivkin. Chairman Cardin, Ranking Member Inhofe, members 
of the committee, thank you for the opportunity to testify on 
this important subject and particularly to do so on this great 
panel of many distinguished witnesses, including Senator 
Warner, a true American hero.
    We heard a number of times today that there is general 
consensus that unilateral U.S. cap-and-trade would not have any 
discernible positive impact on global climate. To me, the 
question then, therefore, is whether or not Waxman-Markey, 
which features the unilateral approach to cap-and-trade in 
dealing with carbon reductions, would induce other major 
emitters, especially India and China, to follow suit.
    We heard a number of times during the last Presidential 
campaign and even a little bit today about how the U.S. can 
lead by example by adopting tough carbon-related mandates that 
other emitting nations would follow. This leadership by example 
argument is buttressed by the claim that it should be possible 
to use carbon tariffs to compel countries that refuse to adopt 
carbon-related mandates of their own.
    These claims have been swiftly disproved. The results of 
the recent international climate talks in Bonn and the G8 
Summit in Italy were not promising. Bilateral exchanges have 
not budged China and India from their adamant refusal to cap 
emissions. If anything, their objections have become more 
vociferous as the U.S. commitment to impose unilateral 
emissions caps has become more palpable.
    To understand why unilateral cap-and-trade will not induce 
emission reductions by other countries, we must call upon our 
experience in a more traditional diplomatic context. In this 
regard, experience teaches us that unilateral concessions are 
never a good idea.
    For example, the arms control agreements of the interwar 
and cold war period all rested on the principle of reciprocity. 
This included carefully negotiated undertakings in which 
parties exchanged measured concessions backed up by careful 
compromises and verification and compliance mechanisms. This 
general lesson is reflected with particular clarity in the area 
of nuclear arms control.
    The reason I think it is an apropos analogy is that first, 
arms control was a centerpiece of our foreign policy for 
decades, and second, because many people came to believe that, 
the logic of nuclear deterrence and stability aside, nuclear 
arms control was a moral obligation. This is very much the case 
with climate change today. And yet, even there unilateral 
concessions never worked.
    Understanding linkage is also important here. Even if we 
assume that our Chinese, Brazilian and Indian interlocutors are 
as passionately concerned about ameliorating climate change as 
we are, they would be practicing deficient statecraft if they 
did not seek to pursue their goal in a manner that benefits 
their other economic, political and military interests.
    In this regard, changing the world's security and economic 
architecture, which they presently see as unduly tilted in 
favor of the West in general and the United States in 
particular, is their major strategic priority. An asymmetrical 
carbon reduction regime under which the United States make the 
greatest sacrifices, the Europeans do a little bit, and the 
developing countries do hardly anything at all would advance 
this goal. Therefore, the passage of Waxman-Markey will make 
emitter states in the developing world even less willing to 
reduce emissions.
    Attempting to reduce greenhouse gas emissions through trade 
penalties would also be highly problematic for a number of 
reasons. First, carbon tariffs are likely to be illegal under 
WTO rules. Numerous countries, as well as senior U.N. 
officials, have already denounced them as a violation of WTO 
principles. Moreover, legal or not, carbon tariffs would 
certainly be challenged repeatedly and acrimoniously before the 
WTO dispute resolution mechanism.
    Some argue that the mere threat of carbon tariffs will 
sufficiently intimidate other countries into doing our bidding 
on carbon, and therefore they really would function as a 
deterrence or compellance mechanism. I do not believe this is 
credible. Either we have the leverage to lead the rest of the 
world now into a comprehensive binding global climate change 
accord where all countries adopt real reduction commitments, or 
we do not.
    It makes no sense to suggest that we do not have the 
sufficient leverage now, when we are prepared for the first 
time in years to put our own carbon emissions into play but 
would somehow acquire this leverage years from now solely 
through the threat of difficult to implement tariff provisions.
    Unfortunately, this kind of unrealistic thinking about 
leading by example permeates the Waxman-Markey bill. It should 
not drive the Senate's decisionmaking on what is one of the 
most important foreign policy issues of our time.
    I look forward to your questions. I also request that my 
written statement be put into the record.
    Thank you.
    Senator Cardin. Without objection, your entire statement 
will put in the record.
    [The prepared statement of Mr. Rivkin follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Cardin. Let me again thank our panel for adding 
greatly to this debate.
    As I was listening to Senator Warner and Admiral McGinn and 
Captain Powers make your presentations about the importance of 
the military to take steps to minimize risk, and then I think 
about the investments that the United States has made to try to 
eliminate safe havens for extremists and terrorists.
    It is a tremendous sacrifice that has been made by our 
soldiers in harm's way in Afghanistan, to try to bring some 
semblance of order to that region so that terrorist groups do 
not have a safe haven. And our concerns in Pakistan today. It 
brings up, then Captain Powers, you mentioned the Sudan and 
Somalia as being risk areas for safe havens for terrorist 
organizations and being very vulnerable to climate change.
    I would just like to get your view as to whether the risks 
of climate change, the instability, could present additional 
areas that the United States will need to be concerned about as 
potential for safe havens for extremists groups.
    Are we running the risk that we could have regions where 
governments will not be effective in controlling its region 
because of the instability caused by climate change that may 
very well present additional risks for the United States and 
our military?
    Senator Warner. I would say to you, unequivocally, 
colleague, that is very clearly the case. It adds additional 
roles and missions to our armed forces which today are 
valiantly fighting in two wars and undertaking in many other 
posts in the world to maintain stability. And oftentimes these 
instances arise very quickly.
    That is why the Department of Defense, pursuant to a law 
which, as I said, Senator Clinton and I put in in 2008, are 
doing the planning and looking forward to how they meet those 
contingencies so that it would be the decision of the Commander 
in Chief, the President of the United States, to implement our 
forces.
    Senator Cardin. Admiral McGinn.
    Mr. McGinn. I think of climate change as a threat 
multiplier, almost like taking a large magnifying glass and 
putting it on top of all of the regions of the world where 
there are presently issues, where there are seams, where there 
is conflict, where there are tensions, and that magnifying 
glass basically makes all of those tensions and conflicts 
larger because of lack of water, in some cases too much water, 
crop failure, and environmentally displaced people crossing 
borders.
    And when you look at those areas of the world that are of 
strategic importance to the United States now, one that was 
mentioned earlier is that nexus around the Himalayas of China, 
India, Pakistan, I can imagine a scenario in which, with the 
diminished water availability flowing to the regions and 
countries that rely on that water, in particular India and 
Pakistan, pressure from the southeast on India due to 
environmentally displaced Bangladeshis because of coastal 
flooding and numerous typhoons, that area of the world, which 
already has some daunting issues, having states that are 
fragile become failed states, and in some cases, those failed 
states would have nuclear weapons.
    Senator Cardin. That is a point I wanted to get to because 
every member of the Senate is very concerned about the 
stability impact a nuclear Iran could have in that region. That 
is why we have made it clear that that is an unacceptable 
outcome, for Iran to become a nuclear weapons power.
    And of course, we know about North Korea. Well, we also 
know about the historical security issues between India and 
Pakistan. The water issues that you are referring to, we have a 
hard time getting Pakistan to focus on its territories because 
of its concern with its India border.
    Are we running, I guess, additional risks that we have 
countries that currently have stability that have nuclear 
capacity that could very well be at a risk as a result of the 
impact of climate change?
    Mr. McGinn. Yes, sir. I think the essence of it is that 
nations that we now know have reasonable levels of stability, 
certainly not as much as we would like, Pakistan is a good 
example and there are others like Egypt, where you bring a 
whole new dimension of problems into those governments, people 
are not getting the essential needs of life and the governments 
go from fragile to failed, that vacuum is filled by extremism. 
And those extremist governments inherit all of the capabilities 
that those nations have now, including armed forces, and in the 
case of Pakistan, nuclear weapons.
    That is a daunting scenario. I am not saying that we are 
definitely going to see a climate change induced nuclear war in 
South Asia, but we cannot ignore the possibility that there are 
consequences when nations fail.
    In the Middle East and the Eastern Mediterranean, we have 
had the conflict for millennia. Could we imagine a Nile Delta 
flooded? Can we imagine crop failures in that nation that would 
cause a stable government, a pro-Western government in Egypt, 
to go to extremism and thereby be the catalyst for a greatly 
expanded war in the Middle East? This has happened so many 
times in the past.
    Senator Cardin. Well, I thank you for that response.
    I am just going to ask the guests that are in the audience 
to please make sure that you do not display signs. That is 
against our committee rules, and we cannot permit that to be 
done.
    Senator Voinovich.
    Senator Voinovich. Thank you.
    Mr. Rivkin, I appreciate your being here today, as well as 
the other witnesses. Your testimony presents a sobering outlook 
regarding our ability to solve the climate problem on our own. 
I have been all over. The German Marshall Fund, we had a 
climate special session there to talk about things.
    The thing that puzzles me, if you listen to everyone, and 
you have been eloquent about the problem, but the real issue 
is, maybe I have been around for too long, I was a mayor for 10 
years and a Governor for 8 years, the old issue is, what can we 
do from a practical point of view to do something about it?
    My frustration is that, from everyone I have talked to, if 
we shut down everything we do, and China and India and Brazil 
and the other countries that have growing economies do not 
participate, the impact we are going to have is going to be 
very little.
    I would like to get into specifically the issue of the 
border tariffs that we would exercise against someone that does 
not participate in the program. The Chinese have made it very 
clear, and the Indians, that they are not going to sign on any 
of these caps. They said, you have been polluting the 
atmosphere for a long time, and it is our turn to do it. We do 
not want to deny our people electricity and some of the other 
things.
    But the issue of the WTO, and my thought is that the only 
way you are really going to have an effective way to deal with 
this is to amend the WTO to take into consideration, when you 
are considering whether someone is practicing protectionism or 
unfair trade, the issue of climate change and greenhouse gas 
emissions. Without it, when countries do things, and we do not 
want them to do it, and we exercise provisions under this law, 
they will just take us to the WTO, and we will not be 
successful with it.
    So, I guess the real issue is, how do we get everybody else 
to participate in this effort? I think one of the reasons why 
we voted, many years ago, against the Kyoto Agreement was that 
we were saying, you know, why should we do it when the rest of 
the folks out there are not going to participate in this? How 
do we get everybody into the basket and to cooperate? These are 
real problems. I acknowledge them. But from a practical point 
of view, how to you get at them?
    I would like your comment on this whole issue of WTO.
    Mr. Rivkin. Sure. Thank you, Senator Voinovich. I would say 
that amending the WTO framework in the way you are describing 
would take off the table some issues about the legality of the 
tariff approach.
    I am still quite uncomfortable with going down this path. 
In part, because we have done very well as a country and as a 
leader of the free world by pushing toward greater trade 
openness. It is very difficult for me to envision a situation 
where we are able to amend the WTO framework in a way that just 
deals with climate change. This will open all the other issues 
in there, certainly in the kind of economic climate where a lot 
of countries are inclined to do beggar my neighbor policy.
    To me, the best way to proceed here is the same way we 
proceeded in every other serious national security issue. Let 
me also register my wholehearted concurrence with the 
proposition that climate change has become a serious national 
security issue. Well, let us treat it in the same way we 
treated other serious national security issues: arms control, 
trade, even human rights.
    Let us get everybody at the table. One thing I would 
certainly give credit to the new Administration for is that it 
has been very clear that we are prepared for the first time to 
go with the binding carbon reductions of our own, large scale 
ones. That is a huge leverage. Let us see how much we are going 
to get from the rest of the major emitting economies. We do not 
have to have a treaty that includes every single country in the 
world. But we should certainly include the major emitting 
economies.
    And if it takes 2 or 3 years to negotiate, let us keep our 
emission inventory as the club, as the leverage, just the way 
we have done it with arms control. And I know it is very easy, 
with all due respect, to talk about leading by example, 
especially if they are moral imperatives. But I would submit to 
you that experience shows that in the arms control area, for 
example, the unilateral measures, nuclear freezes, 
protestations of no first use, have never worked. So, to the 
extent that we take climate change seriously, let us treat it 
seriously.
    There is some unintended irony here that I will briefly 
mention. The previous Administration got some criticism for 
approaching arms control in Moscow in kind of a casual way. 
Remember no long treaties? The new team has gotten back to the 
original framework. So, the new arms control treaty we are 
working on with Russia is going to run hundreds of pages long.
    And yet we seem to be willing to settle when it comes to 
carbon reduction for some vague generic statements from the 
major emitters in the developing world. That is not a serious 
way to proceed.
    Senator Voinovich. Thank you.
    Mr. Powers. Sir, on the aspect of leadership by example, 
and obviously I do not have the expertise to talk about the 
tariff side, but it is also the U.S. military that will be 
responding to the challenges in these destabilizing states 
where climate change will have its most effects. It is not the 
Indian military. It is not the Chinese military.
    So, beginning to move ahead and set the standards for 
others to follow, I think, is incredibly important, especially 
leading into negotiations coming up in December. I think it is 
an aspect that--from a soldier's perspective, it is incredibly 
important to see that Washington is addressing those pieces.
    Mr. Rivkin. Just let me take 10 seconds and say this: 
nobody disagrees with this. The real question is, how far ahead 
of a pack do we get? Indicating that are prepared to do A, B 
and C is fine. Even beginning to do things.
    But adopting a totally unilateral long-term cap-and-trade 
is not leading by example. It is jumping off a cliff and 
providing precious little of anything. In my view, it would 
provide disincentives for the rest of the world to do as much 
because they see us as being locked in. There is no example in 
history that any serious negotiations have ever succeeded this 
way.
    Mr. McGinn. Senator, there are a lot of smart people in 
China and in India--scientists, economists, industrialists, 
policymakers and legislators. They are starting to realize that 
business as usual is not really appropriate for them.
    If you go back 20 years ago when the wall came down and we 
went into the old Warsaw Pact countries in Eastern Europe, 
everybody wanted to have a telecommunications business, the 
ability to connect just like the West.
    But instead of laying long lines of copper and putting 
telephone lines and telephone poles everywhere, they said, 
there is technology available to do this better. We can go to a 
wireless scheme, and we can achieve the same end, but by 
different means, which do not have the costs of recreating an 
infrastructure that is expensive and complex.
    I believe that the United States serves as the world's 
example in areas such as quality of life, economic robustness, 
technological innovation, political freedom, and we can 
continue to serve as an example of a better life by taking a 
leadership role on this issue.
    Other countries do not have to achieve a higher quality of 
life the way the United States did because we did it during the 
height of the oil and fossil fuel age. That age we can see 
coming to an end. Not tomorrow, not in 10 years, perhaps not 
even in 20 or 30 years. But it is inevitable, and there will 
have to be new ways to maintain that economic growth and 
achieve that quality of life for us. We can be a great example 
of that starting with good legislation that addresses the 
problems of climate change, energy security, and national 
security.
    Senator Warner. Senator, very quickly, I conclude on the 
last page of my statement, with a similar comment. The Admiral 
and I travel together on this issue. The United States has to 
step out and lead. I respect Mr. Rivkin's--and it is very well 
written, historical analysis of how--and as you know, I had a 
minor role myself as a negotiator internationally, and I know 
how its trade for this and for that.
    But this situation, if you stop for a moment and decide 
that the world does nothing, I mean does nothing, and we just 
continue to go on the path we are going, the consequences are 
going to be catastrophic. It is the United States that sends 
these young people abroad and responds. We are the only ones 
that have the lift capacity, the seed, air, food, and medical 
to help out. And we are just going to end up as a 911 authority 
for the world unless there is some change in our culture.
    I do believe there are some positive signs with China. We 
were disappointed with the Secretary of State's trip to India 
and that rather abrupt reply. But we have to endure those steps 
as we go along internationally. You served on this Committee of 
Foreign Relations for many years. So, I am betting that if the 
United States leads, in a very reasonable period of time the 
others will begin to follow and take some positive steps on 
their own.
    If we do nothing, you can be sure that nothing else is 
going to be done of any consequence.
    Senator Cardin. Thank you.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    This has been a very interesting discussion. We are asking 
a lot of questions, and a lot of questions go to Senator 
Warner. You said, Senator, and I am always happy to see you, 
something Admiral McGinn just talked about, copper wiring and 
telephone poles, well that is what I did in the Army while the 
bombs were falling in Belgium. Thank goodness that is a job I 
am not doing anymore.
    Senator Warner, you said in your statement, I am a recent 
convert on the need to address the urgent threat of climate 
change. In the last 3 years I have become--and I have shortened 
the language a little bit--convinced that the U.S. must take a 
leading role in curbing emission of greenhouse gases.
    What do you say to your former Senate colleagues to convert 
more of them to passing a global warming bill?
    Senator Warner. Well, I have to say that this hearing this 
morning exceeded my expectations. No. 1, we know from 
experience that a hearing of this type will attract three or 
four Senators. I counted 12 in here at one point. That is an 
extraordinary turnout of this committee at one of the most 
intense times of the Senate's work. And the opening statements 
were diverse, but they were constructive and heartfelt. I did 
not see anyone shake a fist in criticism.
    I think the Senate is going to be the institution that can 
bring together the disparity of thinking on this and put 
forward its own piece of legislation. I think in some respects 
it will track the Waxman-Markey bill. But we are going to solve 
this over here ourselves.
    And it seems to me, as I leave here today, I have a sense 
of satisfaction. This institution is doing a lot of work and we 
ought to bring it to the public's attention.
    Senator Lautenberg. Thank you.
    Mr. Rivkin, I find your testimony quite startling, I must 
say. I know that you are a distinguished attorney and represent 
part of a major law firm. I want to ask you, if I might, what 
kind of a practice do you currently conduct? What specifically 
do you do in terms of representation?
    Mr. Rivkin. Litigation, Senator Lautenberg.
    Senator Lautenberg. Do you ever find yourself defending oil 
companies, energy companies?
    Mr. Rivkin. Well, not oil companies. Energy companies, 
sometimes.
    Senator Lautenberg. How much, what part of your practice, 
typically, when you do represent those companies, you are 
representing them, I assume, as defense counsel?
    Mr. Rivkin. That is correct. But I am testifying here in my 
personal capacity, not on anybody's behalf.
    Senator Lautenberg. Well, but you do not come without some 
influence of your background. So, come on. The fact of the 
matter is, I do not know what your expertise development's 
been, but you cannot ignore what you have been doing for a long 
time----
    Mr. Rivkin. If I may, Senator, the thing that was germane, 
and that shaped my testimony and caused me to come here is the 
fact that I was a defense analyst and while not privileged to 
serve in the military, I spent many years doing defense 
analysis, and to me, this climate change has become an area 
where I have spent many years working there----
    Senator Lautenberg. So, you think that the way to resolve 
this is for us to kind of continue along, do what we, I noticed 
here that you said that the United States should approach 
issues of climate change with the same prudence and realism as 
any other national security issue. Does that include armament, 
stepping up our military? What do we do to deal with these 
issues?
    Mr. Rivkin. Thank you for your question. Let me clarify 
that I am most emphatically not suggesting that we do nothing. 
What I am suggesting is that we lead the world the same way in 
this area that we led the world in arms control or human rights 
area by patiently negotiating, pushing hard, obtaining 
verifiable commitments from our partners.
    And by the way, it does not have to be one size fits all. I 
take note of Admiral McGinn's point about copper versus 
wireless communications. What I would like to see is diverse, 
flexible but real commitments on the part of India, China, and 
Brazil. What I do not want to see is a situation where we lock 
ourselves in----
    Senator Lautenberg. I saw that in your testimony, that you 
want them to respond in better fashion. But while we, well, I 
think the summary really says it all, that we approach it like 
any other national security issue. So, other national security 
issues include intelligence, armament, and a larger presence 
around the world.
    Admiral McGinn, do you think that we can let the situation 
stand without incurring substantial penalties with the delays 
that will follow?
    Mr. McGinn. No, sir. I think that if we continue a business 
as usual approach to this problem, every day and every year 
that goes by, the challenges get greater, and unfortunately our 
options get narrower.
    To me, Senator Lautenberg, this discussion is about dealing 
with greenhouse gases. It is yet another new chapter in 
recognizing what the true and full costs of progress are.
    When I first came into the Navy as a young midshipman and 
went to sea, there was a wonderful insulating material called 
asbestos that was on all of our ships and in many of our 
industries, including our smokestack industries. It really did 
a good job of insulating by keeping energy inside. However, we 
found the true and full costs of that type of progress. There 
are some downsides to it.
    We had a wonderful product that saved thousands of lives, 
back in World War II and into the 1950s, a mosquito repellant 
called DDT. It worked great. It saved lives. We needed to do 
that. Upon further scientific examination, however, we found 
that there was a downside. The full and true health-related 
costs associated with DDT needed to be reckoned with.
    We have got Superfund sites all around the Nation that are 
a testimony to the goodness that this Nation has displayed in 
recognizing when science finds a problem, we deal with it, and 
we deal with it in the proper way. And as we have found, our 
quality of life goes up when we tackle these problems.
    Acid rain is another one. The Clean Air Act was an instance 
when we recognized the role of science. We take what we 
understand from science. It may not be 100 percent certainty, 
but we have the ability to act on it. I think that, in the case 
of greenhouse gases, that is what we are talking about. We 
understand there is a true and full cost to the use of fossil 
fuels. We need to come to grips with it, and go on a different 
path.
    Senator Cardin. Senator Barrasso.
    Senator Lautenberg. Mr. Chairman, just to equalize the 
time, I made sure that I did not take any more time than 
anybody else, so just one closing thing. First, there are 
several questions that I would like to submit in writing and 
want this record to be kept open.
    And second, to just say to Captain Powers, the little quip 
that you introduced as a commentary, you say, do not lead by 
rank, lead by example. I think that permeates life at its best, 
and I am surprised that our distinguished attorney friend 
thinks that we ought to wait for the other guys to set the 
example. That is not like America at all.
    Thank you very much.
    Senator Cardin. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Rivkin, based on your military background, your years 
as a defense analyst, I think Senator Voinovich asked a little 
bit about China and India and what they are doing, and it seems 
to me that they are putting economic growth and economic 
security over environmental issues.
    Do they view that, would you think, as part of their own 
national security, their economic issues, and then I look at 
that in terms of where we ought to be doing well?
    Mr. Rivkin. Absolutely different political systems to be 
sure, but they are both, perhaps, for different reasons. India, 
of course is a democracy; China is not. But both see improving 
the lot of the people, their people, as a must. And frankly, 
they also, and I do not begrudge it to them, they are 
interested in rebalancing the existing international system.
    They think that the economic balance, the military balance, 
the balance of power in the major sinews and institutional 
sinews of our international system is unduly balanced against 
them. So they are looking at it, again, precisely because this 
is a serious issue.
    You have got to look at linkage. That was the case in 
trade, that was the case in arms control, it is the case in 
foreign policy in general. I am not saying they do not care 
about this. They do. But they want to do it in a way that 
advances their other goals across the board.
    Senator Barrasso. When I look at unemployment in this 
country now at 9.5 percent and predicted to climb higher, many 
studies looking at Waxman-Markey say this is going to cost 
Americans jobs in energy, minerals, manufacturing, big issues 
for Wyoming.
    How would high unemployment in those sectors impact 
America's security in terms of us becoming more dependent on 
foreign sources of energy?
    Mr. Rivkin. Ironically enough, it would do precisely what 
you are suggesting. So, a particularly tough long-term 
unilateral trading cap normally would not elicit the right 
response from the major developing countries. But it would harm 
our economy. It would put stress on our society, making the 
situation worse.
    There is one interesting point which I do not think many 
people appreciate. I call it the leakage problem. It will 
actually make things worse because if a large portion of our 
manufacturing sector goes offshore to countries which have no 
carbon constraints, these countries would even today, and will 
continue to have, less energy efficient economies. So, actually 
the goal of emissions may well go up, which is absolutely, let 
us just say it gently, it is encratic response. That is not 
what we are seeking here.
    Senator Barrasso. We got a recent memo that was released by 
the non-partisan Congressional Research Service. It said the 
intelligence community is not engaged in evaluating scientific 
judgments concerning global climate change. It makes me wonder 
whose science and assumptions the intelligence community is 
relying on in making their decisions. Anybody know where that, 
I do not know if Senator Warner or any of you know where that, 
because I am trying to find out where that is coming from.
    Senator Warner. I will try to determine that and provide if 
for the record because I was the one that instituted the 
requirement for the intelligence community to come up and give 
the Congress and the President the report. But that is a very 
good question.
    Mr. Powers. Sir, according to the testimony on that 
assessment, it was the science of the Intergovernmental Panel 
on Climate Change. That is the science they used.
    Senator Barrasso. So, they are using international studies, 
not something done here?
    Mr. Powers.The IPCC is an international group.
    Mr. Rivkin. If I could just add one point. If we are 
talking about intelligence assessments, again in the past, not 
to always harp on arms control, but when we did arms control 
you always wanted to understand what the goals of the other 
side are before you get to the negotiating table.
    It would be interesting to see if our intelligence 
community is analyzing what the Chinese and Brazilians and 
Indians really think about climate change, which may be 
something quite different from their public statements. That 
would be a worthwhile endeavor.
    Senator Barrasso. The thing that struck me in this memo 
released by the Congressional Research Service, it said that in 
assessing the implications of climate change, the intelligence 
community is devoting certain existing resources, both 
budgetary as well as personnel resources, to the effort and 
drawing on existing expertise of various intelligence community 
agencies.
    The memo also stated that the budget and personnel 
commitments associated with this effort were classified. So, I 
think the Committee, Mr. Chairman, ought to be briefed on what 
these efforts are so we can get a full picture on all of this.
    With that, thank you Mr. Chairman. No other questions.
    Senator Cardin. Thank you.
    Senator Carper.
    Senator Carper. First of all, let me just ask Senator 
Warner: is there life after politics? And if so, how would you 
characterize that life?
    Senator Warner. Well, I can assure you that I miss all of 
you and the life. But I had a good opportunity for 30 years to 
experience it, and there is life hereafter. I urge you to 
reflect carefully on it when you get ready to leave and make 
some preparations. I am still getting boxes and boxes of 
letters that I have to turn around and answer one way or 
another. But that is my constituents. They still recognize that 
we worked together for many years.
    But there is no greater honor that any person can have than 
to serve in this institution. I say that with the deepest 
humility. Enjoy it while you are here, do your best, and you 
will never regret it.
    Senator Carper. Well, thank you for that advice. You have 
given us great advice over the years, and you still do.
    Vice Admiral McGinn, you have known a number of Secretaries 
of the Navy, I presume. Is that correct?
    Mr. McGinn. Yes, sir.
    Senator Carper. Roughly how many, would you say?
    Mr. McGinn. I would have to count it up, Senator, but I was 
Lieutenant McGinn when you were Lieutenant Carper back during 
those tough times and fighting that war. I also have always 
considered Senator Warner as my leader, Secretary of the Navy 
at that time.
    Senator Carper. Yes, a great role model.
    Senator Warner. Could I add that you were a naval aviator, 
and he was Top Gun material?
    Senator Carper. You are kidding. Is that true?
    Senator Warner. Talk about it a little bit here.
    [Laughter.]
    Mr. McGinn. I have some regrets now, sir, that all of that 
time I spent lighting afterburners in Navy jets may have put 
some greenhouse gases into the atmosphere.
    [Laughter.]
    Mr. McGinn. So maybe this is a form of penance. But 
seriously, I had a wonderful career. I had an opportunity to 
command carrier-based squadrons and F-18s and A-7s and, in 
fact, to command an aircraft carrier.
    Senator Carper. Which one?
    Mr. McGinn. It was the U.S.S. Ranger out of San Diego. I 
also, interestingly, was the chief test pilot in Senator 
Cardin's State down at Patuxent River for a couple of years.
    It was a fine career, and it gave me a tremendous exposure 
to science, engineering, and technology. It also gave me a 
tremendous exposure to other cultures in my numerous trips, 
sometimes for deployments of months and sometimes living for 
years overseas.
    I was telling Senator Warner not too long ago that one of 
the motivators for guys like retired Admirals and Generals or 
Captains or anybody that has served in the U.S. Armed Services 
is that when you have been to other countries, you get to see 
what it is like. And you come back to this country ,and you 
say, God, it is great to be back because this is the best 
Nation on earth. It is the shining city on the hill. We can and 
must lead.
    Senator Carper. Good. I agree. One of my favorite sayings 
is, I would rather see a sermon than hear one. That says a lot 
about leadership, and I agree with you that we need to provide 
the leadership.
    A lot of people are saying, well, why should we get out 
there and provide leadership? The Chinese are not going to do 
that much, the Indians are not going to do that much. As it 
turns out, the Chinese are doing a lot. You know, they are 
building a lot of coal-fired plants. They are also, I think, 
doing a better job in terms of their emission controls in some 
of those new plants than we are.
    We are proud of our new CAFE standards for fuel-efficient 
vehicles, but the Chinese are actually well ahead of us in 
terms of energy efficiency for the cars they are putting out on 
the road. I would like to ask, and maybe I could start with 
Senator Warner----
    Senator Warner. Could I just say, in working with you, when 
we worked together on the Lieberman-Warner bill, you always had 
a high degree of confidence that this is achievable 
technologically, drawing on your own background. And just 
recently, China and the United States did enter into an 
executive agreement to begin to work on the complexity of 
sequestration.
    So, it is not just damnation against these other countries. 
They have got special problems. But I do believe, in their 
heart of hearts, and particularly their cultures, they do not 
want to be viewed by the world, nor do they want to see their 
citizens continue to suffer from the detrimental effects to the 
health, of this CO<INF>2</INF> problem.
    Senator Carper. Good. Let me just follow up on what Senator 
Warner just said. I think maybe some of our colleagues on the 
committee, and I think maybe I should mention Mr. Rivkin, in 
his remarks, express concern about China and India not joining 
us with any enthusiasm in reducing greenhouse gases.
    I think we would all acknowledge that we need every 
country, especially the major emitters, to begin reducing their 
emissions. I am sensing that the Chinese have caught on to 
that, and I am encouraged that they have. And you just gave us 
an example.
    Senator Warner, what would you suggest that we do, as 
members of this committee and as members of the Senate, to 
better ensure that China and India, and really other developing 
countries, join us with enthusiasm in reducing emissions?
    Senator Warner. I come back to the simple statement: we 
have got to lead. And I do believe they will follow. They are 
proud nations. They have struggled with overpopulated areas and 
from the lack of so much of the benefits that the Western world 
has enjoyed for so long. They want to join. They want, I think, 
to join as responsible nations and work with us. But it is that 
first long stride that we must take that will bring them along.
    Senator Carper. Admiral McGinn, and is it Captain Powers?
    Mr. Powers. Yes, sir.
    Senator Carper. Do you all want to add anything to that?
    Mr. Powers. Yes, sir. In that leadership, I think the 
biggest difference between this and some other national 
security issues that would have been talked about, for 
instance, nuclear weapons, and addressing the threat of nuclear 
weapons is addressing the risk that we will have an explosion 
because of those nuclear weapons.
    We have already seen the risks, the results, of climate 
change. And looking at the core, the root problem of the fossil 
fuels, and addressing the energy security piece is going to be 
critical, not only for our national security, but for our 
economy. I think that is where we can really bring our 
leadership.
    Mr. Rivkin. If I could just add, I think what we are all 
wrestling with in good faith is a definition of leadership. Let 
me stipulate that leadership does not mean to do nothing. 
Leadership does not mean not taking the first step, or even the 
second step. Leadership also does not mean being inflexible and 
seeking to impose exactly the same measures on the Chinese or 
the Indians or the Brazil that we would do. That is not 
leadership. That is stupidity. But leadership----
    Senator Carper. Let me interrupt. My time is limited. I am 
going to go back to Admiral McGinn here. When I was in the 
Navy, someone once described leadership as staying out of step 
when everybody else is marching to the wrong tune. Admiral.
    Mr. McGinn. One of my favorite leadership sayings was: 
There they go. I must hasten after them, for I am their leader. 
I was talking about the great sailors, marines, airmen and 
soldiers that I had the privilege of serving in and, in some 
cases, commanding, at least in name.
    I think that this idea of leadership is to create 
opportunities for individuals and organizations, and in some 
cases even nations, to be as good as they can be. In China, in 
India, there is tremendously good work going on toward 
renewable energy. For example, you probably know that China is 
the world's largest producer of photovoltaic cells. Many of 
those cells are being used not only in China, but even more so 
outside of China.
    So, I think the United States has an opportunity to lead in 
many ways. We can also lead in technical areas, or perhaps even 
in some of the procedural and policy areas. Our leadership will 
bring about a more secure world.
    Senator Carper. All right. My time has expired. It is great 
to see each of you, especially my leader. Thank you all for 
joining us today and for your good work.
    Senator Warner. I think the record should show that we 
recognize the leadership being given by the President of the 
United States now on this issue. It is key.
    Senator Cardin. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chair. Thank 
you to all of our panelists.
    Admiral McGinn, you cited a number of potentially severe 
consequences from global climate change, and you also said that 
in the military, you must base your decisions on trends and 
experience and judgment because waiting for 100 percent 
certainty, I suppose like if someone is going to attack you, it 
is too long a wait and a crisis can be imminent.
    For at least 20 years, the level of probability for climate 
change has increased significantly. The science has increased 
significantly. At what point would you consider the science 
sound enough to base military planning around it? And where 
would you rank climate change among other global threats?
    Mr. McGinn. Senator, I would put us well past the point at 
which we need to take action. Every day that goes by, I think 
the threat grows, and we need to recognize that. We need to 
take prudent steps now. We certainly do not want to unravel our 
economy or way of life. We want to improve it.
    But from a military planning perspective, Senator Warner, 
in his leadership of the Armed Services Committee and his key 
role there, put into the 2008 Defense Authorization Act the 
requirement for the Department of Defense to consider climate 
change. That work is ongoing. It has begun, and it is starting 
to pick up momentum, but much more needs to be done.
    And I fully concur with Senator Warner's recommendation of 
involving the Armed Services Committee and their oversight role 
with the Department of Defense and agencies, to see exactly 
what is being done. How do they assess it, and given that level 
of threat assessment and risk, what are they going to do about 
it to prepare us?
    Senator Klobuchar. Very good.
    Senator Warner, thank you for your early leadership on this 
and predicting that this would be a problem early on. Do you 
want to comment on that and what more needs to be done?
    Senator Warner. Senator, you are doing it. I felt, as you 
were out of the room a few minutes ago, that the opening 
statements here today reflect a lot of very objective and hard 
thinking that is being done by the U.S. Senate. I hope you 
encourage other colleagues to do it.
    The idea, as a matter of fact, I worked on the Clean Air 
Act when I was here. I remember how we went about that was 
strong leadership, again in the Senate. It was Senators Chafee 
and Moynihan and George Mitchell that led us through that. And 
everybody said, the sky is going to fall in with Clean Air. We 
cannot do it. We cannot do it. But America did do it, again, 
with strong leadership and the guidance that the Congress gave 
and the incentives that the Congress gave.
    Cap-and-trade is a complicated system. But in contrast to 
just a tax which to me is not the way to go, some form of cap-
and-trade because it provides an incentive for the industry to 
step up, and with their own initiative, find the technical 
ways, the financial ways, and so forth, to achieve their goals.
    So, press on, I say to my colleagues. Press on. We will 
solve this as a country. We always have. It is an uphill climb. 
But I must say it is one of the most complex, if not the most 
complex issue, that I witnessed in my many years here.
    Senator Klobuchar. Well, thank you very much. I think one 
of our issues is trying to get information out. Having leaders 
like you talk about the national security angle of this is very 
important because I do not think people intuitively think about 
that, as I said in my opening statement.
    I wanted to follow up a little with what Senator Carper was 
talking about. I thought about it, actually, this last week. I 
watched, on Saturday night, with my 14-year-old daughter some 
movie about the landing on the Moon, coinciding with the 40th 
anniversary, and how we were in that major space race and 
trying to explain it to her was kind of interesting.
    Then you fast forward to today which, in a way, we are in 
an energy race, an energy race with the Chinese and other 
countries. And I know we focused on climate change and how we 
are going to have them work with us and what we can do jointly.
    But one of the things that most concerns me is that the 
finish line for this race is not going to be Neal Armstrong 
landing on the Moon. It is going to be a new wind turbine 
manufacturing facility, whether it is built in Ohio or whether 
it is built in a province of China. Whether we are going to be 
developing the best new battery for new cars or whether it is 
going to be developed in another country.
    So, I wondered if you could comment a little bit about the 
security risk of losing this manufacturing base and losing our 
edge when it comes to this technology and allowing it to be 
built in other countries like China, which as far as I know has 
pledged to invest $462 billion in renewable energy by 2020. In 
each of the last 3 years, China has increased wind power by 100 
percent. China's plans include a 10-fold scale-up of solar 
power in the next decade.
    So, we are looking at a serious effort on their part, which 
of course has its merit. But what I am concerned about is that, 
if we do not do something to encourage more development of this 
technology, we are going to lose the edge in another way, and 
more jobs are going to go to China. Vice Admiral McGinn and 
maybe Captain Powers.
    Mr. McGinn. You are absolutely right, Senator. We have the 
opportunity now to enhance our jobs and economy by creating a 
new energy economy. Every day that goes by, just as it does 
with global warming, our ability to compete gets a little bit 
tougher as infrastructures get built in these other nations, 
these competing nations. So we can, in fact, seize it.
    We just need to have the right set of incentives to develop 
a national portfolio of energy efficiency technology, as well 
as energy source technology, whether it is renewables, nuclear 
power or what have you. We need to try to level the playing 
field vis-a-vis fossil fuels somewhat. Until that playing field 
is level, it is going to be a tough uphill climb with an 
erratic policy environment, for example, on investment tax 
credit or production tax credit, or lacking a renewable energy 
standard, for us to really see the investments coming from the 
private sector that will create that energy economy in this 
country.
    Having worked as an executive for a time in Ohio at 
Battelle Memorial Institute running the Energy Transportation 
Environment Division, I really have a good appreciation for 
what is being done in the laboratories and what is being done 
in the private sector. There is a lot of great technology that 
is just waiting for the investment to scale up. Those 
technologies will really start making a difference.
    Senator Klobuchar. OK. I am almost out of time.
    Captain Powers.
    Mr. Powers. Madam, I come from Bethel, New York, so I know 
all about the jobs that have picked up and gone overseas. Like 
any national security issue, what we need is a multifaceted 
interagency approach. You know, we cannot just look at the 
Pentagon, we have to look at Commerce and Energy and the 
departments that will really be involved in this.
    And I think that the American Clean Energy and Security Act 
is a great step forward in that, to make sure that we are 
building solar panels, we are building windmills, in the 
factories that I left at home, that are closed.
    Senator Klobuchar. Thank you very much.
    Mr. Rivkin. Can I just take 10 seconds and say this? The 
reverse problem is that if we operate in a carbon constrained 
environment and no other countries do, many industries will go 
overseas creating its own national security vulnerabilities.
    Senator Klobuchar. Thank you.
    Senator Cardin. Let me thank our panel. I think the science 
information is clear that carbon emissions, greenhouse gases, 
have a significant impact on global climate change and that we 
have the technology to do something about that, that we can 
reverse that. I think this hearing has been particularly 
helpful.
    Senator Klobuchar is right. I think there is a sound way 
that we can do this in a manner that is going to create 
additional jobs for our economy, and we want to make sure that 
we do it that way so we not only improve our environment, we 
help our economy.
    But I think what this panel has really contributed to the 
debate is that, if we do this right, it will also be good for 
our national security. Not just the direct security for energy 
that we need for our economy, but also for the potential risks 
to America's international commitments.
    I could not agree with the panel more. It is going to be up 
to the United States. The consequences of failure to deal with 
these issues will fall squarely on the national security costs 
to our country.
    I think this panel has been extremely helpful in furthering 
this debate. I thank all four of you for your patience with our 
committee through our opening statements. Senator Warner 
pointed out, as a former colleague of ours, that our members 
have a passionate interest in the subject as reflected in their 
opening comments. I think we all want to get this right, and I 
think you all contributed greatly to the debate.
    Thank you all very much.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
